i
,1-S-

&QV
•i

-o

-o

7

UNITED STATES COURT OF APPEALS
For the Eleventh Circuit

No. 20-11386

District Court Docket No.
0:20-cv-60163-RKA
CHARLENE WALKER ROSA,
Plaintiff - Appellant,
versus
MICHAEL J. SATZ,
BROWARD COUNTY STATE ATTORNEY,
Defendants - Appellees.

Appeal from the United States District Court for the
Southern District of Florida
JUDGMENT
It is hereby ordered, adjudged, and decreed that the opinion issued on this date in this appeal is
entered as the judgment of this Court.
Entered: January 08,2021
For the Court: DAVID J. SMITH, Clerk of Court
By: Djuanna H. Clark

ISSUED AS MANDATE 03/11/2021

a A-

. f

V

Case: 20-11386

Date Filed: 07/10/2020

Page: 1 of 2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10627-A
CHARLENE TERRY-ANN WALKER ROSA,
Petitioner-Appellant,
versus

SECRETARY, DEPARTMENT OF CORRECTIONS,
Respondent-Appellee.

No. 20-11276-AA
CHARLENE TERRY-ANN WALKER ROSA,
a.k.a. Charlene Rosa,
Petitioner-Appellant,
versus
HOWARD FINKELSTEIN,
DOHN WILLIAMS, JR.,
Respondents-Appellees.

No. 20-11386-CC
CHARLENE WALKER ROSA,
Plaintiff-Appellant,
versus

Case: 20-11386

Date Filed: 07/10/2020

Page: 2 of 2

MICHAEL J. SATZ,
BROWARD COUNTY STATE ATTORNEY,
Defendants-Appellees.

Appeals from the United States District Court
for the Southern District of Florida

ORDER:
Appellant’s motions to consolidate Case Nos. 20-10627, 20-11276, and 20-11386 are
DENIED.
/s/ Robert J. Luck
UNITED STATES CIRCUIT JUDGE

2

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

Q\\J^
/

ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal 1 uscourts.gov

David J. Smith
Clerk of Court

March 11,2021
Clerk - Southern District of Florida
U.S. District Court
400 N MIAMI AVE
MIAMI, FL 33128-1810
Appeal Number: 20-11386-CC
Case Style: Charlene Walker Rosa v. Michael Satz, et al
District Court Docket No: 0:20-cv-60163-RKA
A copy of this letter, and the judgment form if noted above, but not a copy of the court's
decision, is also being forwarded to counsel and pro se parties. A copy of the court's decision
was previously forwarded to counsel and pro se parties on the date it was issued.
The enclosed copy of the judgment is hereby issued as mandate of the court. The court's opinion
was previously provided on the date of issuance.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Lois Tunstall
Phone#: (404)335-6191
Enclosure(s)
MDT-1 Letter Issuing Mandate

Received
MAR 2 3 2021

y

k

&

|yPREM°EF

* y

Case: 20-11386

Date Filed: 07/10/2020

Page: 1 of 1

!

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth StreepN.W.
Atlanta, Georgia 30303
David J. Smith
Cleric of Court

1

/

j'

For rules and forms visit
www.call.uscourts.gov

July 10, 2020
Charlene Terry-Ann Walker Rosa
Florida Women Reception Center - Inmate Legal Mail
3700 NW 111TH PL
OCALA, FL 34482-1479
Appeal Number: 20-11386-CC; 20-10627-A; 20-11276 -AA
Case Style: Charlene Walker Rosa v. Michael Satz, et al
District Court Docket No: 0:20-cv-60163-RKA
This Court requires all counsel to file documents electronically using the Electronic Case
Files ("ECF") system, unless exempted for good cause. Non-incarcerated pro se parties
are permitted to use the ECF system by registering for an account at www.pacer.gov.
Information and training materials related to electronic filing, are available at
www.call.uscourts.gov.
The enclosed order has been ENTERED.
Appellee's brief is due 30 days from the date of the enclosed order Only in case no.
20-11386-CC.
Appellant's brief is due 40 days from the date of the enclosed order Only in case no.
20-11276-AA.
r. '
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Carol R. Lewis, CC
Phone #: (404) 335-6179
MOT-2 Notice of Court Action

~T\;

-n

>6

Case: 0:20-cv-60163:RKA

Document #\ 30 Entered on FLSD Docket: 05/14/2020

Page 1 of 2

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
•» t

CASE NO.: 20-60163-CV-ALTMAN/Reid
CHARLENE WALKER ROSA,
Plaintiff,
v.

MICHAEL J. SATZ,
et al.,
Defendants).

ORDER
THIS MATTER came before the Court on pro se Plaintiff Charlene Walker Rosa’s
Motion to Proceed in Forma Pauperis on Appeal [ECF No. 29], filed on April 30, 2020. Courts
may authorize a party to proceed in forma pauperis in any suit so long as the party complies with
the prescriptions of 28 U.S.C. section 1915(a)(1). Because the Plaintiff has complied with the
statutory requirements, it is hereby
ORDERED AND ADJUDGED that the Plaintiff s Motion to Proceed in Forma Pauperis
on Appeal [ECF No. 29] is GRANTED as follows:
1. The Plaintiff is permitted to proceed in forma pauperis on appeal. This means that she
need not prepay even a partial filing fee or costs for service of process.
2. But the Plaintiff shall owe the United States a debt of $505.00, which must be paid to
the Clerk of the Court as funds become available.

1

Case: 0:20-cv-60163-RKA

Document #: 30 Entered on FLSD Docket: 05/14/2020

Page 2 of 2

3. The jail/prison having custody of the Plaintiff must make payments from the Plaintiff s
account to the Clerk of this Court each time the amount in the account exceeds $10.00
until the full filing fee of $505.00 is paid.
DONE AND ORDERED at Fort Lauderdale, FlopdaH3»4his 13th day of May 2020.

ROY K. ALTMAN
UNITED STATES DISTRICT JUDGE
cc:

Charlene Walker Rosa
L06814
Florida Women’s Reception Center
3700 NW 111th Place
Ocala, FL 34482-1479
PRO SE
Florida Department of Corrections
Inmate Trust Fund
Atm: Veronica Wold
Centerville Station
P. O. Box 12100
Tallahassee, FL 32317
Financial Department,
United States District Court, Southern District of Florida

2

Subject:Activity in Case 0:20-cv-60163-RKA Rosa v. Satz et al Order on Motion for Leave to
Proceed in forma pauperis
This
automatic e-mail message generated by the CM/ECF system.
DV is ™an Mn-r
^ NOT RESPOND to this e-mail because the mail box is unattended.
NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits
attorneys of record and parties in a case (including pro se litigants) to receive one
free electronic copy of all documents filed electronically, if receipt is required by law or
directed by the filer. PACER access fees apply to all other users. To avoid later
charges, download a cippy of each document during this first viewing. However, if the referenced
document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
Southern District of Florida
Notice of Electronic Filing
The following transaction was entered on 1/30/2020 11:03 AM EST and filed
on 1/30/2020
Case Name: Rosa v. Satz et al
Case Number: 0:20-cv-60163-RKA
Filer:
Document Number: 5

Docket Text:
ORDER granting [3] Motion for Leave
to Proceed in forma pauperis. Plaintiff to Proceed without Prepayment of
Filing Fee but Establishing Debt to Clerk of $350.00. Granting to the
extent that the plaintiff need not prepay even a partial filing fee in this
or t0 Pr<rPay costs such as for service of process. USM Service
NOT Ordered. Signed by Magistrate Judge Lisette M. Reid on 1/30/2020.
<I>See attached document for full details.</I> (fbn)

0:2O-cv-60163-RKA Notice has been electronically mailed to:
0:20-cv-60163-RKA Notice has not been delivered electronically to those listed
below and will be provided by other means. For further assistance, please
contact our Help Desk at 1-888-318-2260.:
Charlene Walker Rosa
L06814
Florida Women%27s Reception Center
3700 NW 111th Place
Ocala, FL 34482-1479

Service list page 1 only

U.S. District Court - Southern District of Florida

Charlene Walker Rosa L06814
'
Florida Women&#037;27s Reception Center
3700 NW 111th Place
Ocala, FL 34482-1479
Case: 0:20-cv-60163-RKA #5

6 pages

Thu Jan 30 11:21:35 2020

IMPORTANT: REDACTION REQUIREMENTS AND PRIVACY POLICY
Note: This is NOT a request for information.
Do NOT include personal identifiers in documents filed with the Court, unless
specifically permitted by the rules or Court Order. If you MUST include personal
identifiers, ONLY include the limited information noted below:
• Social Security number: last four digits only
• Taxpayer ID number: last four digits only
• Financial Account Numbers: last four digits only
• Date of Birth: year only
• Minor's name: initials only
• Home Address: city and state only (for criminal cases only).
Attorneys and parties are responsible for redacting (removing) personal identifiers from
filings. The Clerk's Office does not check filings for personal information.
Any personal information included in filings will be accessible to the public over the
internet via PACER.
For additional information, refer to Fed. R. Civ. P. 5.2 and Fed. R. Crim. P. 49.1.
Also see the CM/ECF Administrative Procedures located on the Court's website
www.flsd.uscourts.gov.
IMPORTANT: REQUIREMENT TO MAINTAIN CURRENT MAILING ADDRESS AND CONTACT INFORMATION
Pursuant to Administrative Order 2005-38, parties appearing pro se and counsel appearing
pro hac vice must file, in each pending case, a notice of change of mailing address or
contact information whenever such a change occurs. If court notices sent via the U.S. mail
are returned as undeliverable TWICE in a case, notices will no longer be sent to that party
until a current mailing address is provided.
IMPORTANT:

ADDITIONAL TIME TO RESPOND FOR NON-ELECTRONIC SERVICE

Additional days to respond may be available to parties serviced by non-electronic means.
See Fed.R.Civ.P.6(d), Fed.R.Crim.P.45(c) and Local Rule 7.1(c)(1)(A). Parties are
advised that the response deadlines automatically calculated in CMECF do NOT account
for and may NOT be accurate when service is by mail. Parties may NOT rely on response
times calculated in CMECF, which are only a general guide, and must calculate response
deadlines themselves.
See reverse side

Case: 0:20-cvc60163-RKA

Document#: 4 Entered on FLSD Docket: 01/28/2020

Page l ot 5

I

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASENC.: 20-60163-CV-ALTMAN
MAGISTRATE JUDGE REID
CHARLENE WALKER ROSA,
Plaintiff,
v.

i

i

MICHAEL J. SATZ, et al.,
Defendant(s).
ORDER OF INSTRUCTIONS TO PRO SE CTVTT RIGHTS LITIGANTS
Plaintiff in this case is proceeding pro se. It is therefore important that she be
advised of essential requirement: concerning this case. It is therefore
ORDERED AND ADJUDGED as follows:
/

1.

It is the responsibility of Plaintiff to keep the Court advised
of her
current address at all times, If P aintiffs address changes and no change of address
is promptly filed with the Clerk of Court, this case may be dismissed for lack of
prosecution. A change of address must be labeled "Notice of Change of Address"
and must not include any motior s or other information except for the new address
and the effective date of the change. Plaintiff must understand that the Court does
not know if Plaintiff is transferred or released unless a change of address is filed.

4-f)l0&MJA a>

oasc. uxu'i/V-uuiwrMV’

L/UbUIIICIIl TT. "T

I HVI WM

Wl •

■'W -

e
2.

It is Plaintiffs responsibility to prov: ie the full name, title, if any, and

address of the defendant(s). If service cannot be a'xomplished upon a defendant due
to lack of information provided by Plaintiff, the°;ase will be dismissed as to that
defendant(s). If there is only one defendant anc° service cannot be achieved, the
c

entire case will be dismissed.
3.

Plaintiff is instructed that the Court nias no legal authority to appoint
.1

counsel for the Plaintiff in a civil rights suit. In extraordinary cases, it can request a
lawyer to represent the plaintiff, but such cases ar rare, and no appointment can be
t

made in any civil rights case.
4.

Plaintiff shall serve upon the defences) and the defendant(s) upon

Plaintiff, or, if appearance by counsel has bee. i entered, upon their respective
counsel, copies of all further pleadings or -ther documents submitted for
consideration by the Court. This means that bei )re counsel has appeared for the
defendant(s), Plaintiff shall send to the defenda t(s) personally a copy of every
further pleading, motion, or other paper submitte to the Court. After counsel has
appeared for the defendant(s), the copy shall be sent directly to counsel for the
defendant(s), rather than to the defendant(s) personally. Plaintiff shall include with
each pleading, motion, or other paper submitted

be filed a certificate stating the
f

date that an accurate copy of the pleading, motio n, or other paper was "mailed to
tl

defendant(s) or counsel for defendant(s). If anyi pleading, motion, or other paper
il

2
4

Case: 0:20-cv-60163-RKA

Document #: 4 Entered on FLSD Docket: 01/28/2020

Page 3 of 5

submitted to the Court does not include a certificate of service upon the defendant(s)
or counsel for the defendant(s), it will be stricken by the Court.
/

5.

In cases where Plaintiff is filing an Amended complai

nt, Plaintiff shall

not send a copy of the amended complaint to the defendants. In such cases, a copy
of the amended complaint and a motion for leave to amend the complaint

shall be

filed with the court only and not mailed to any of the defendants.
6.

All pleadings must include the case number at the top of the first page.

The parties shall send the origins of every pleading or document to the Clerk of this
Court. Miami cases to be filed at 400 North Miami Avenue,

8th Floor, Miami,

Florida 33128; Broward cases to be filed at 299 East Broward Boulevard, Room
108, Fort Lauderdale, Florida 33301; West Palm Be.arh cases to be filed at 701
Clematis Street, Room 202, West Palm Beach, Florida 33401.

Each submission

shall include 1) a copy of the pleading or document, and 2) a certificate of service
stating the date a true copy of the pleading or document was sent to the

opposing

party(ies) and/or counsel for such party(ies).
7.

No original pleading or document shall be sent directly to a Judge or

Magistrate of this Court. Any paper submitted directly to a Judge or Magistrate
rather than to the Clerk will be d sregarded by the Court.
8. Plaintiff is instructed r ot to send letters to the Court or to the Clerk. All
documents must be filed in accordance with the Federal Rules of Civil Procedure
2

(

oase: u:^u-uv-ouj.oo-r%r\M

UUUUIIICI 11 TT. ®T

ui

iiui

—~

v>u vi i

I

c
and copies must be furnished to opposing counsel. No letter to the Court will be
answered. Plaintiff must understand that letters ar _ ■ not motions or pleadings and are
1

therefore not docketed in the case.
9.

A pro se litigant and his or her fami y, friends or acquaintances must

not call any Judge’s office for any reason. No ii formation about the case can be
obtained from the Judge’s office. Brief case status information contained on the
docket sheet may be available from the Clerk of court, but no Court employee can
provide legal advice to any litigant, pro se or otherwise.
/

10. Plaintiff has no counsel to assist in th discovery process. Attention is

therefore drawn to Fed. R. Civ. P. 26(a), which lies the various forms of discovery
available in civil cases. Plaintiff is instructed that tie Court will not grant any motion
by a pro se plaintiff to take depositions, but v ill otherwise permit reasonable,
relevant discovery by the methods described in the Federal Rules of Civil Procedure.
11.

It is Plaintiff’s responsibility to acti ely pursue this case, obtain any

essential discovery, file all necessary pleadings ai d motions and otherwise comply
0

with all scheduling orders and prepare the case I for trial. Failure to do this will
k

probably result in dismissal of the case for lack of%osecution.
8

12.

If Plaintiff has been permitted to proc ^ed in forma pauperis pursuant to
ir

28 U.S.C. § 1915(a), she must understand that < ; § 1915(a) order only permits a
t

plaintiff to proceed without prepayment of costs1 and fees; it does not mean that
f:

4

Case: 0:20-cv-60163-RKA

Document #: 4 Entered on FLSD Docket: 01/28/2020

Plaintiff is not obligated underlie law to pay the costs and fees
able to do so. It is Plaintiff s

Page 5 of 5

when he or she is

responsibility to make monthly payments of 20% of

the preceding month’s income credited to his

or her account, and the agency having

custody of Plaintiff must forward payments from Plaintiffs

account to the Clerk

each time the amount in the account exceeds $10.00 until the full filing fee is paid.
At the conclusion of the case, the Court may tax
'

costs against the losing party

-i- »

or parties, and if Plaintiff wins tie case such

an order will probably eliminate any

debt for costs such as service of process by the Marshal. Otherwise,
any costs and
fees incurred by the Marshal on Plaintiffs behalf ar
e properly billed to Plaintiff.
DONE AND ORDERED at Miami, Florida, on this 28th day of January 2020.

cc:

s/Lisette M. Reid
united states magistrate judge

Charlene Walker Rosa
L06814
Florida Women’s Reception Center
3700 NW 111th Place
Ocala, FL 34482-1479
PROSE

5

/

Subject:Activity in Case 0:20-cv-60163-RKA Rosa v. Satz et al Order on Motion for Leave to
Appeal in forma pauperis
This is an automatic e-mail message generated by the CM/ECF system.
Please DO NOT RESPOND to this e-mail because the mail box is unattended.
***N0T£ TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits
attorneys of record and parties in a case (including pro se litigants) to receive one
free electronic copy of all documents filed electronically; if receipt is required by law or
directed by the filer. PACER access fees apply to all other users. To avoid later
charges, download a copy of each document during this first viewing. However, if the referenced
document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
Southern District of Florida
Notice of Electronic Filing
The following transaction was entered on 5/14/2020 8:33 AM EDT and filed
on 5/14/2020
Case Name: Rosa v. Satz et al
Case Number: 0:20-cv-60163-RKA
Filer:
WARNING: CASE CLOSED on 03/24/2020
Document Number: 30

Docket Text:
ORDER granting but Plaintiff shall owe
the United States a debt of $505.00 re [29] Motion for Leave to Appeal
in forma pauperis. Signed by Judge Roy K. Altman on 5/13/2020.
<I>See attached document for full details.</I> (apz)

0:20-cv-60163-RKA Notice has been electronically mailed to:
0:20-cv-60163-RKA Notice has not been delivered electronically to those listed
below and will be provided by other means. For further assistance, please
contact our Help Desk at 1-888-318-2260.:
Charlene Walker Rosa
L06814
Florida Womens Reception Center
3700 NW 111th Place
Ocala, FL 34482-1479

Service list page 1 only

U.S. District Court - Southern District of Florida

Charlene Walker Rosa L06814
Florida Womens Reception Center
3700 NW 111th Place
Ocala, FL 34482-1479
Case: 0:20-cv-60163-RKA #30

4 pages

IMPORTANT: REDACTION REQUIREMENTS AND PRIVACY POLICY

Thu May 14 8:51:28 2020
.

.

•

Note: This is NOT a request for information.
Do NOT include personal identifiers in documents filed with the Court, unless
specifically permitted by the rules or Court Order. If you MUST include personal
identifiers, ONLY include the limited information noted below:
• Social Security number: last four digits only
• Taxpayer ID number: last four digits only
• Financial Account Numbers: last four digits only
• Date of Birth: year only
• Minor's name: initials only
• Home Address: city and state only (for criminal cases only).
Attorneys and parties are responsible for redacting (removing) personal identifiers from
filings. The Clerk's Office does not check filings for personal information.
Any personal information included in filings will be accessible to the public over the
internet via PACER.
For additional information, refer to Fed. R. Civ. P. 5.2 and Fed. R. Crim. P. 49.1.
Also see the CM/ECF Administrative Procedures located on the Court s website
www.flsd.uscourts.gov.
IMPORTANT: REQUIREMENT TO MAINTAIN CURRENT MAILING ADDRESS AND CONTACT INFORMATION
Pursuant to Administrative Order 2005-38, parties appearing pro se and counsel appearing
pro hac vice must file, in each pending case, a notice of change of mailing address or
contact information whenever such a change occurs. If court notices sent via the U.S. mail
are returned as undeliverable TWICE in a case, notices will no longer be sent to that party
until a current mailing address is provided.
IMPORTANT: ADDITIONAL TIME TO RESPOND FOR NON-ELECTRONIC SERVICE
Additional days to respond may be available to parties serviced by non-electronic means.
See Fed.R.Civ.P.6(d), Fed.R.Crim.P.45(c) and Local Rule 7.1(c)(1)(A). Parties are
advised that the response deadlines automatically calculated in CMECF do NOT account
for and may NOT be accurate when service is by mail. Parties may NOT rely on response
times calculated in CMECF, which are only a general guide, and must calculate response
deadlines themselves.
See reverse side

Case: 0:20-cv-60163-RKA

Documeht #: 33 Entered on FLSD Docket: 11/16/2020

lofl

Court Name: SOUTHERN DISTRICT OF FLORIDA
Divisions 1
Receipt Numbers FLS100216219
Cashier IDs jcaceres
Transaction Dates 10/02/2020
Payer Names FLORIDA DEPT OF CORRECTIONS
PLRA CIVIL FILING FEE
Fors CHARLENE WALKER ROSA
Case/Partys D-FLS-0-20-CV-060163-001
Amounts
$22.00
PAPER.CHECK CONVERSION
Check/Honey Order Hums 0700719
Amt Tendereds $22.00
Total Due:
$22.00
Total Tendereds $22.00
Change Amt:
$0.00
Returned cheek fee $53
Checks and drafts are accepted
subject to collection and full
CTeoit will only be given when the
check or draft has been accepted by
the financial institution on which
it was drawn.

Page

Subject:Activity in Case 0:20-cv-60163-RKA Rosa v, Satz et al Clerks Receipt
This is an automatic e-mail message generated by the CM/ECF system.
Please DO NOT RESPOND to this e-mail because the mail box is unattended.
***N0TE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits
attorneys of record and parties in a case (including pro se litigants) to receive one
free electronic copy of all documents filed electronically, if receipt is required by law or
directed by the filer. PACER access fees apply to all other users. To avoid later
charges, download a copy of each document during this first viewing. However, if the referenced
document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
Southern District of Florida
Notice of Electronic Filing
,
The following transaction was entered on 11/16/2020 1:30 PM EST and filed
on 11/16/2020

'
’

Case Name: Rosa v. Satz et al
-Case Number: 0:20-cv~-6'0T63-RkA
Filer:
WARNING: CASE CLOSED on 03/24/2020
Document Number: 33

Docket
Clerks
Filing
number

Text:
Notice of Receipt of Appeal Partial
Fee received on 10/2/2020 in the amount of $ 22.00, receipt
FLS100216219. (jcs)

0:20-cv-60163-RKA Notice has been electronically mailed to:
0:20-CV-60163-RKA Notice hasnot beenjjelivered^electronically to th_ose listed
below and will be provided by other means. For further assistance, please
contact our Help Desk at 1-888-318-2260.:
Charlene Walker Rosa
L06814
Florida Womens Reception Center
3700 NW 111th Place
Ocala, FL 34482-1479

U.S. District Court - Southern District of Florida

Charlene Walker Rosa L06814
Florida Womens Reception Center
3700 NW 111th Place
Ocala, FL 34482-1479
Case: 0:20-cv-60163-RKA #33

3 pages

Mon Nov 16 13:51:31 2020

IMPORTANT: REDACTION REQUIREMENTS AND PRIVACY POLICY
Note: This is NOT a request for information.
Do NOT include personal identifiers in documents filed with the Court, unless
specifically permitted by the rules or Court Order. If you MUST include personal
identifiers, ONLY include the limited information noted below:
• Social Security number: last four digits only
• Taxpayer ID number: last four digits only /
• Financial Account Numbers: last four digits only
• Date of Birth: year only
• Minor's name: initials only
• Home Address: city and state only (for criminal cases only).
Attorneys and parties are responsible for redacting (removing) personal identifiers from
filinqs. The Clerk's Office does not check filings for perspnal information.
Any personal information included in filings will be accessible to the public over the
internet via PACER.
For additional information, refer to Fed. R. Civ. P. 5.2 and Fed. R. Crim. P. 49.1.
Also see the CM/ECF Administrative Procedures located on the Court s website
www.flsd.uscourts.gov.
IMPORTANT: REQUIREMENT TO MAINTAIN CURRENT MAILING ADDRESS AND CONTACT INFORMATION
Pursuant to Administrative Order 2005-38, parties appearing pro se and counsel appearing
pro hac vice must file, in each pending case, a notice of change of mailing aJJre.ss or
contact information whenever such a change occurs. If court notices sent via the U.S. mail
are returned as undeliverable TWICE in a case, notices will no longer be sent to that party
until a current mailing address is provided.
IMPORTANT: ADDITIONAL TIME TO RESPOND FOR NON-ELECTRONIC SERVICE
Additional days to respond may be available to parties serviced by non-electronic means.
See Fed.R.Civyp.6(d), Fed.R.Crim.P.45(c) and Local Rule 7.1(c)(1)(A). Parties are
advised that the response deadlines automatically calculated in CMECF do NOT account
for and may NOT be accurate when service is by mail. Parties may NOT rely on response
times calculated in CMECF, which are only a general guide, and must calculate response
deadlines themselves.
See reverse side

fbJrJjt/r s', -

-o

i

!
t

i

;

i

\

;

Subject:Activity in Case 0:20-cv-60163-RKA Rosa v. Satz et al Report and Recommendations
This is an automatic e-mail message generated by the CM/ECF system.
Please DO NOT RESPOND to this e-mail because the mail box is unattended.
***N0TE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits
attorneys of record and parties in a case (including pro se litigants) to receive one
free electronic copy of all documents filed electronically, if receipt is required by law or
directed by the filer. PACER access fees apply to all other users. To avoid later ^
charges, download a copy of each document during this first viewing. However, if the referenced
document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
Southern District of Florida
Notice of Electronic Filing
. ... ,
The following transaction was entered on 3/4/2020 1:43 PM EST and filed
on 3/4/2020
Case Name: Rosa v. Satz et al
Case Number: 0:20-CV-60163-RKA
Filer:
Document Number: 14

Docket Text:
REPORT AND RECOMMENDATIONS on 42 USC
1983 case re [13] Amended Complaint filed by Charlene Walker Rosa; Recommending
that the complaint should be dismissed for failure to state a claim upon
which relief can be granted under § 1915(e). Such dismissal is without
prejudice to seek relief if Plaintiffs conviction is at some point invalidated.
It is further recommended that Plaintiffs request to consolidate this case
with case no. 20-60051-CV-Altman be denied. Objections to R&R due by 3/18/2020.
Signed by Magistrate Judge Lisette M. Reid on 3/4/2020. <I>See attached
document for full details.</I> (fbn)

0:20-cv-60163-RKA Notice has been electronically mailed to:
0:20-cv-60163-RKA Notice has not been delivered electronically to those listed
below and will be provided by other means. For further assistance, please
contact our Help Desk at 1-888-318-2260.:
Charlene Walker Rosa
L06814
Florida Womens Reception Center
3700 NW 111th Place
Ocala, FL 34482-1479
Service list page 1 only

U.S. District Court - Southern District of Florida

Charlene Walker Rosa L06814
Florida Womens Reception Center
3700 NW 111th Place
Ocala, FL 34482-1479
Case: 0:20-cv-60163-RKA #14

10 pages

Wed. Mar 4 13:51:31 2020

IMPORTANT: REDACTION REQUIREMENTS AND PRIVACY POLICY
Note: This is NOT a request for information.
Do NOT include personal identifiers in documents filed with the Court, unless
specifically permitted by the rules or Court Order. If you MUST include personal
identifiers, ONLY include the limited information noted below:
• Social Security number: last four digits only
• Taxpayer ID number: last four digits only
• Financial Account Numbers: last four digits only
• Date of Birth: year only
• Minor's name: initials only
• Home Address: city and state only (for criminal cases only).
Attorneys and parties are responsible for redacting (removing) personal identifiers from
filings. The Clerk's Office does not check filings for personal information.
Any personal information included in filings will be accessible to the public over the
internet via PACER.
For additional information, refer to Fed. R. Civ. P. 5.2 and Fed. R. Crim. P. 49.1.
Also see the CM/ECF Administrative Procedures located on the Court's website
wwwiflsd.uscourts.gov.
IMPORTANT: REQUIREMENT TO MAINTAIN CURRENT MAILING ADDRESS AND CONTACT INFORMATION
Pursuant to Administrative Order 2005-38, parties appearing pro se and counsel appearing
pro hac vice must file, in each pending case, a notice of change of mailing address or
contact information whenever such a change occurs. If court notices sent via the U.S. mail
are returned as undeliverable TWICE in a case, notices will no longer be sent to that party
until a current mailing address is provided.
IMPORTANT: ADDITIONAL TIME TO RESPOND FOR NON-ELECTRONIC SERVICE
Additional days to respond may be available to parties serviced by non-electronic means.
See Fed.R.Civ.P.6(d), Fed.R.Crim.P.45(c) and Local Rule 7.1(c)(1)(A). Parties are
advised that the response deadlines automatically calculated in CMECF do NOT account
for and may NOT be accurate when service is by mail. Parties may NOT rely on response
times calculated in CMECF, which are only a general guide, and must calculate response
deadlines themselves.
See reverse side

Case: 0:20-cv-60163-RKA

Document #: 14 Entered on FLSD Docket: 03/04/2020

Page 1 of 8

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
. CASE NO.: 20-60163-CV-ALTMAN
MAGISTRATE JUDGE REID
CHARLENE WALKER ROSA
Plaintiff,
v.
MICHAEL J. SATZ, et al.,
Defendants.
REPORT OF MAGISTRATE JUDGE
RE AMENDED CIVIL RIGHTS COMPLAINT-42 U.S.C. § 1983
[ECF No. 13]
I.

Introduction

Plaintiff, Charlene Walker Rosa, a convicted felon, has filed an amended
civil rights complaint, pursuant to 42 U.S.C. § 1983. [ECF No. 13]. The plaintiff is
suing Broward County State Attorney Michael J. Satz, Assistant State Attorney
David Frankel, Public Defender Howard Finkelstein, former Assistant Public
Defender Harry Dohn Williams, Assistant State Attorney Joel Silverstein, and
Assistant Attorney General Heidi Bettendorf the alleging that they violated her
constitutional rights in a state criminal prosecution. [Id.].
This case has been referred to the undersigned for issuance of all preliminary
orders and recommendations to the district court regarding dispositive motions. See
1

Case: 0:20-cv-60163-RKA

Document #: 14 Entered on FLSD Docket: 03/04/2020

Page 2 of 8

28 U.S.C. § 636(b)(1)(B),(C), Fed. R. Civ. P. 72(b), S.D. Fla. Local Rule 1(f)
governing Magistrate Judges, and S.D. Fla. Admin. Order 2019-02.
Plaintiff has been granted in forma pauperis (“IFP”) status [ECF No. 5] and
is therefore subject to the screening provisions of 28 U.S.C. § 1915(e)(2). See Farese
v. Scherer, 342 F.3d 1223,1228 (11th Cir. 2003) (“Logically, § 1915(e) only applies
to cases in which the plaintiff is proceeding IFP”). Because Plaintiff is also a
prisoner, seeking redress from governmental entities, employees, or officers, his
complaint is subject to screening under 28 U.S.C. § 1915A, which does not
distinguish between IFP plaintiffs and non-IFP plaintiffs. See 28 U.S.C. § 1915A;
Thompson v. Hicks, 213 F. App'x 939, 942 (11th Cir. 2007)(per curiam).
II.

Plaintiff’s Claim

Plaintiff has presented a repetitive hodgepodge of factual allegations
concerning her claim that Defendants violated her right to due process during her
criminal trial. [ECF No. 13]. In referencing her attempts to exhaust her claims,
Plaintiff cites to a number of state criminal post-conviction proceedings and prior
federal habeas corpus proceedings. [Id.]. Plaintiff also claims that her defense
counsel was ineffective and that her conviction violated double jeopardy. [Id.]. She

2

oase: u.^u-cv-ouioj-kka

uocumeni w. 14 tnierea on »-L£>u uocKei: uaiwuvtu

raye ouio

further alleges that her conviction was the result malicious prosecution and extrinsic
fraud committed by Defendants. [Id.].
Plaintiff contends that her conviction was the result of these alleged
constitutional violations. [Id.]. Plaintiff further contends that she has been subjected
to cruel and unusual punishment in violation of the Eighth Amendment as a result
of the alleged wrongful conviction. [Id.]. The entirety of her complaint is an attack
upon her state conviction for first degree murder as evidenced by her request to
combine this case with a pending petition for writ of habeas corpus in case no. 2060051-CV-Altman. [Id. at 1]
III.

Standard of Review- 28 U.S.C. §19I5(e)

Pursuant to 18 U.S.C. § 1915(e)(2)(B)(ii), where a plaintiff is proceeding IFP,
the complaint must be dismissed if the court determines that the complaint fails to
state a claim on which relief may be granted. Wright v. Miranda, 740 F. App'x 692,
694 (11th Cir. 2018). Pursuant to § 1915A, a case is also subject to dismissal where
a plaintiff seeks redress from the government if the complaint fails to state a claim
on which relief may be granted. Id.
In reviewing the complaint under § 1915(e), the court takes the allegations as
true and construes them in the light most favorable to the plaintiff. See Maps v.
Miami Dade State Attorney, 693 F. App’x 784, 785 (11th Cir. 2018)(per curiam).
Complaints filed by pro se prisoners are held to “less stringent standards than formal
3

Case: 0:20-cv-60163-RKA

Document #: 14 Entered on FLSD Docket: 03/04/2020

Page 4 ot u

pleadings drafted by lawyers[.]” Haines v. Kemer, 404 U.S. 519, 520 (1972)(per
curiam).
In order to “avoid dismissal for failure to state a claim, a complaint must
contain factual allegations that, when accepted as true, allow the court to draw the
reasonable inference that the defendant is liable for the alleged misconduct.” Wright
v. Miranda, 740 F. App'x 692,694 (11th Cir. 2018)(citing Waldman v. Conway, 871
F.3d 1283, 1289 (11th Cir. 2017) (per curiam)). Although a pro se pleading is
liberally construed, it must still “suggest that there is some factual support for a
claim.” Id.

To state a claim for relief under § 1983, a plaintiff must show that he was
deprived of a federal right by a person acting under color of state law. See Griffin v.
City ofOpa-Locka, 261 F.3d 1295,1303 (11th Cir. 2001). Under § l9l5(e)(2)(B)(i),
courts may dismiss as frivolous claims that are “based on an indisputably meritless
legal theory" or "whose factual contentions are clearly baseless.” Neitzke v.
Williams, 490 U.S. 319, 327 (1989); Denton v. Hernandez, 504 U.S. 25, 31 (1992);
Bilal v. Driver, 251 F.3d 1346, 1349 (11th Cir. 2001).
Furthermore, the same standards govern dismissal for failure to state a claim
under Fed. R. Civ. P. 12(b) and dismissal for failure to state a claim under
§ 1915(e)(2)(B)(ii). Mitchell v. Farcass, 112F.3d 1483,1490 (11th Cir. 1997). Thus,
under 28 U.S.C. § 1915(e)(2)(B)(ii), the court may dismiss a complaint that fails “to
4

uase: u:zu-cv-t>uiba-KKA

Document ft: 14 tnterea on i-lsu Docket: U3/U4/zuidU

page 5 ot 8

state a claim for relief that is plausible on its face.” Bell Atl. Corp. v. Twombly, 550
U.S. 544, 570 (2007). “A claim has facial plausibility when the plaintiff pleads
factual content that allows the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662,679
(2009).
Although federal courts give liberal construction to pro se pleadings, courts
“nevertheless have required them to conform to procedural rules.” Albra v. Advqn,
Inc., 490.F.3d 826, 829 (11th Cir. 2001)(per curiam)(quotation omitted). Rule 8
requires that a pleading contain “a short and plain statement of the claim showing
that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2). There is no required
technical form, but “each allegation must be simple, concise, and direct.” Id. at
8(d)(1). The statement must “give the defendant fair notice of what the ... claim is
and the grounds upon which it rests.” Bell Atlantic Corp. v. Twombly, 550 U.S. 544,
555 (2007)(quotation omitted)(ellipses in original). Additionally, each separate
claim should be presented in a separate numbered paragraph, with each paragraph
“limited as far as practicable to a single set of circumstances.” Fed. R. Civ. P. 10(b).
“Precedent also teaches, however, that a court, of course, should not abandon
its neutral role and begin creating arguments for a party, even an unrepresented one.”
Sims v. Hastings, 375 F.Supp.2d 715, 718 (N.D. Ill. 2005)(citing Anderson v.
Hardman, 241 F.3d 544,545 (7th Cir. 2001). When read liberally, a pro se pleadings
5

^jiIhmM* C

Case: 0:20-cv-60163-RKA

Document #: 14 Entered on FLSD Docket: 03/04/2020

Page 6 of 8

“should be interpreted ‘to raise the strongest arguments that [it] suggests].’”
Graham v. Henderson, 89 F.3d 75, 79 (2d Cir. 1996)(quoting Burgos v. Hopkins, 14
F.3d 787, 790 (2d Cir. 1994)).
IV.

Discussion

In Heck v. Humphrey, 512 U.S. All (1994), the Supreme Court held that,
before a plaintiff may proceed with a § 1983 action “to recover damages for
allegedly unconstitutional conviction or imprisonment, or for other harm caused by
actions whose unlawfulness would render a conviction or sentence invalid,” he must
prove that the conviction or sentence had already been invalidated. 512 U.S. at 48687. If the plaintiff fails to demonstrate that the conviction or sentence has been
reversed, expunged, or otherwise invalidated, any claim must be dismissed if “a
judgment in favor of the plaintiff would necessarily imply the invalidity of his
conviction or sentence.” Id. at 487. In a later decision, the Supreme court announced
that “a state prisoner's§ 1983action is barred (absent prior invalidation)—no matter
the relief sought (damages or equitable relief), no matter the target of the prisoner's
suit (state conduct leading to conviction or internal prison proceedings)—if success
in that action would necessarily demonstrate the invalidity of confinement or its
duration.” Wilkinson v. Dotson, 544 U.S. 74, 81 (2005).
Here, Plaintiff seeks to invalidate her conviction claiming that it was the result
of unconstitutional actions by the prosecutor and her defense attorney. She argues
6

OcUsC. U.^U-UV-OUJ.DJ-KI\M

uQcumem #: i4 tnterea on flsd Docket: 03/04/2020

Page 7 of 8

that the prosecution and defense counsel colluded to violate her constitutional rights.
She claims that her conviction was the result of a malicious prosecution by the
Broward State Attorney and that her defense counsel was complicit.
It is exactly this type-of claim that the Eleventh Circuit has found not
cognizable in civil rights action. SeeAbella v. Rubino, 63 F.3d 1063,1066 (11th Cir.
1995)(finding plaintiffs claims that he was the “victim of an unconstitutional
conspiracy to falsely convict him” were in the nature of habeas corpus claims and
therefore not cognizable under § 1983). Id. Since the Plaintiffs conviction has not
been invalidated, her complaint should be dismissed.
V.

Recommendations

Based upon the foregoing, it is recommended that the complaint should be
dismissed for failure to state a claim upon which relief can be granted under §
1915(e). Such dismissal is without prejudice to seek relief if Plaintiff s conviction is
at some point invalidated. It is further recommended that Plaintiffs request to
consolidate this case with case no. 20-60051-CV-Altman be denied.
Objections to this report may be filed with the District Judge within fourteen
days of receipt of a copy of the report. Failure to file timely objections shall bar a
party from a de novo determination by the District Judge of an issue covered in this
report and shall bar the parties from attacking on appeal factual findings accepted or

7

Case: 0:20-cv-60163-RKA

Document #: 14 Entered on FLSD Docket: 03/04/2020

Page 8 ot 8

adopted by the District Judge except upon grounds of plain error or manifest
injustice. See 28 U.S.C. §636(b)(l); Thomas v. Am, 474 U.S. 140,149 (1985).
SIGNED this 4th day of February, 2020.
UNITED STATES MAGISTRATE JUDGE
cc:

Charlene Walker Rosa
L06814
Florida Women’s Reception Center
3700 NW 111th Place
Ocala, FL 34482-1479
PRO SE

8

-T'v

-r~>

-n

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.cal I uscourts.eov

March 03, 2021
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 20-11386-CC
Case Style: Charlene Walker Rosa v. Michael Satz, et al
District Court Docket No: 0:20-cv-60163-RKA
The enclosed order has been entered on petition(s) for rehearing.
See Rule 41, Federal Rules of Appellate Procedure, and Eleventh Circuit Rule 41-1 for
information regarding issuance and stay of mandate.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Carol R. Lewis, CC/lt
Phone #: (404)335-6179
REHG-1 Ltr Order Petition Rehearing

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-11386-CC
CHARLENE WALKER ROSA,
Plaintiff - Appellant,
versus
MICHAEL J. SATZ,
BROWARD COUNTY STATE ATTORNEY,
Defendants - Appellees;
Appeal from the United States District Court
for the Southern District of Florida
ON PETITION(S) FOR REHEARING AND PETITIONS FOR REHEARING EN BANC
BEFORE: JILL PRYOR, LUCK and BRASHER, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Panel Rehearing is also denied. (FRAP 40)

ORD-46

fr|)/bAUX&

-T\

o.

US

-o

~n

dlNkis Jam^ uy ff-Ofi

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No, 18-12339-C
CHARLENE TERRY-ANN WALKER ROSA,
Petitioner-Appellant,
versus

STATE OF FLORIDA,
ATTORNEY GENERAL OF THE STATE OF FLORIDA,
Respondents-Appellees.
Appeal from the United States District Court
for the Southern District of Florida
ORDER:
Charlene Terry-Ann Walker Rosa moves for a certificate of appealability (“COA”) in
order to appeal the dismissal of her 28 U.S.C. § 2254 petition for writ of habeas and denial of her
Fed. R. Civ. P. 59(e) motion to alter or amend the judgment To merit a COA, Rosa must make
ua substantial showing of the denial of a constitutional right” 28 U.S.C. § 2253(c)(2). Because.
Rosa failed to make a substantial showing of the denial of a constitutional right, her motion for a
COA is DENIED^.
Rosa's motion for appointment of counsel is also DENIED AS MOOT.

_______ /s/ Stanley Marcus
UNITED STATES CIRCUIT JUDGE

£

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARK TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Cleric of Court

For rules and forms visit
www.cal 1 .iBcoum.gov

March 07,2019
Charlene Terry-Ann Walker Rosa
Lowell Cl - Inmate Legal Mail
11120 NW GAINESVILLE RD
OCALA, FL 34482-1479
Appeal Number: 18-12339-C
Case Style: Charlene Walker Rosa v. State of Florida, et al
District Court Docket No: 0:16-cv-62332-BB
This Court requires all counsel to file documents electronically using the Electronic Case
Files C’ECF") system, unless exempted for good cause.
The enclosed order has been ENTERED.
*Copy of our order entered on January 07,2019, is enclosed.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Walter Pollard, C/lt
Phone#: (404) 335-6186
MOT-2 Notice of Court Action

>M I ■ IWI li

II,

t-«HWtWU VII I

W '-'I-' UVVI\6l.

ciL
y*-UNITED
STATES,DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 16-cv-62332-BLOOM/WHITE
CHARLENE TERRY-ANN WALKER ROSA,
Petitioner,
v.
JULIE L. JONES,
SEC’Y, FLA. DEP’T OF CORR’S,
Respondent.

ORDER ADOPTING MAGISTRATE JUDGE’S REPORT AND RECOMMENDATION
THIS CAUSE is before the Court upon pro se Petitioner’s Petition for Writ of Habeas
Corpus, ECF No. [7], filed pursuant to 28 U.S.C. § 2254 (the “Petition”), which was previously
referred to the Honorable Patrick A. White for a Report and Recommendation on any dispositive
matters. See ECF No. [3], On April 2, 2018 Judge White issued a Report and Recommendation
(the Report ), recommending that the Petition be denied on the merits as to claims 1, 2, and 4
and procedural^ barred as to claim 3. See ECF No. [53]. The Report also recommended that a
certificate of appealability be denied and that the case be closed. In the Report, Petitioner was
advised that “[objections to this report may be filed with the District Judge within fourteen days
of receipt of a copy of the report.” Id. at 38. She then timely filed Objections and separately
filed an Application for Certificate of Appealability. See ECF Nos. [54] and [59], The Court has
since conducted a de novo review of Magistrate Judge White’s Report and Recommendation,
Petitioner’s Objections, the record, and is otherwise fully advised. See Williams v. McNeil, 557
F.3d 1287,1291 (11th Cir. 2009) (citing 28 U.S.C. § 636(b)(1)).

4

L/| XV H

Case: 0:16-cv-62332-BB

Document #: 61 Entered on FLSD Docket: 05/31/2018

Page 2 of 19

CASE NO. 16-cv-62332-BLOOM/WHITE
I. BACKGROUND
Petitioner was charged with first-degree murder of Lola Salzman by bludgeoning and/or
stabbing with a knife in violation of Florida Statute § 782.04(1). See ECF No. [30-1] at 13-14.
On July 5,2007, the jury found Petitioner guilty of first-degree murder and she was sentenced to
a term of life in prison without the possibility of parole. Id. at 16-22. After a lengthy history of
proceedings in state court, Petitioner timely filed her Petition for habeas relief in this tribunal.
See ECF No. [1]. The Report summarized Petitioner’s four claims as follows:
1. Ineffective assistance of counsel where counsel’s opening statements
prejudiced her from receiving a fair trial. Petitioner’s conviction was obtained by
an involuntary concession of guilt without understanding the nature of the charge
and the consequences of a plea since Counsel did not have Petitioner’s
affirmative, explicit consent to concede her guilt. Counsel’s opening and closing
statements, and cross examination of witnesses were a demonstration of evidence
conceding Petitioner’s guilt.
2. Ineffective assistance of counsel where:
(A)

Counsel was ineffective for conceding to the authenticity of the telephone
conversations;

(B)

Counsel elicited testimony that Petitioner’s blood was found on a picture
on a wall at the crime scene

(C)

Counsel admitted to or failed to challenge evidence presented that
Petitioner extorted a friend to collect payment from the victim.

(D)

Counsel knowingly presented false testimony that Petitioner had a scar on
her hand and that she showed it to police at the time of the arrest as evidence
that the scar was a result of the “alleged murder” of the victim;

(E)

Counsel informed the jury that'Petitioner left the country because of her
consciousness of guilt;

(F)

Counsel conceded to facts in the prosecution’s case without Petitioner’s
consent, which denied meaningful adversary testing; and

(G)

Counsel refused to “strategize” with Petitioner.

2

•

w

CASE NO. 16-cv-62332-BLOOMAVHITE
L! «7SIi''e
°f C0U”Sel Where Peli,ioner was shackled throoghoul the
right to alah S™ ^ ^ JUry’ "*“* prejudiced the Petiti°"« in violation of her
4. Ineffective assistance of counsel where counsel failed to:
(A)

(B)

Call Dr Edward Greenburg to testify as an expen witness who would
have stated that the victim died of natural causes. Counsel improperly
conceded that the victim died as a result of 43 stab wounds; and
Assert an alibi defense with the testimony of Thomas Fairbough.

ECF No. [53] at 2-4. Ultimately, the Report concluded that, as to claims 1, 2, and 4, the Petition
failed on the merits and, as to claim 3, it was procedurally barred for failure to exhaust the
remedy in state court.
II. OBJECTIONS
Petitioner’s lengthy Objections raise multiple arguments, which the Court summarizes as
follows: (1) the Report did not contain a verbatim recitation of her four claims for relief; (2)
Petitioner did not receive the assistance of counsel to prepare her Petition and did not know she
could file additional grounds for habeas relief; (3) the Report should have not relied upon the
recitation of facts contained within the opinion issued by Florida’s Fourth District of Appeals in
her direct appeal; (4) claim 3 is not procedurally barred because she has uncovered new evidence
of her actual innocence; (5) the Report erred in finding that claim 1 did not constitute ineffective
assistance of counsel; and (6) the Report misconstrued her position as to claim 2(a) regarding the
authenticity of telephone conversations. See ECF No. [54]. In addition, Petitioner separately
filed an Application for Certificate of Appealability. The Court addresses each issue in turn. '
a. Objection Number 1
Petitioner did not object to the recommendation that claims 2(B) through 2(G) and 4 be
denied on the merits, other than to argue that the report failed to verbatim recite all claims
and
3

'-ase: u:ib-cv-62332-BB

Document #: 61 Entered on FLSD Docket: 05/31/2018

Page 4 of 19

CASE NO. 16-cv-62332-BLOOM/WHITE
supporting facts from her Petition. She claims that this failure rendered the Report inadequate
and deprived her of a fair and impartial review of her constitutional claims. See ECF No. [54] at
6-9. However, Judge While explicitly states in the Report that he reviewed the Petition at ECF
No. [7], and he accurately summarized each of Petitioner’s claims. See ECF No. [53]. The
Report need not include a word-for-word recitation of all claims and facts. The Report reflects
that Judge White meticulously analyzed each of the four claims in the Petiti

on along with all

parts and the underlying record. Id. Therefore, Petitioner’s objection is without merit and is
overruled.

And, because Petitioner did not raise any substantive objections to the

rec ommendation that claims 2(B) through 2(G) and claim 4 be denied

on the merits, she has

foregone the right to otherwise object to the legal analysis and factual findings made by Judge
White as to these specific claims.
b. Objection Number 2
Petitioner next contends that conflict-free counsel should have been

appointed to assist

her with the preparation of her Petition. It should be noted that prior to the instant objection,
Petitioner filed no less than four motions requesting the appointment of counsel

and on four

occasions, Petitioner’s request was denied. See ECF Nos. [10], [11], [32], [39], [49], [50], [57],
[58]. In support of her objection, Petitioner

argues that she is financially indigent and cannot
afford counsel and lacks the intellectual ability to properly articulate legal
arguments in support
of her request for habeas relief. S« ECF No. [54], More specifically, Petitioner states she has
an intellectual quotient of 72 and is, therefore, intellectually disabled, referring to a report
prepared by the Department of Corrections.
A petitioner does not have a constitutional right to counsel during post-conviction
collateral attack proceedings. See Pennsylvania

4

v. Finley, 481 U.S. 551, 555 (1987) (“Our cases

■

-O w

»

CASE NO. 1 6-cv-62332-BLOOMAVHITE
“

"" ri81",0

10

appeal o,right, and „„ fonher...

• We femlc tha, since a defendam has no federal constitutional right

counse. when pursuing a

discretionary appeal on direct teview of his conviction, a fortiori, he has no such right when
attaching a conviction tha, has .ong since become fina. upon exhaustion of fee appeilate
process.”). The decision whether to appoint counsel
the discretion of the trial

on a petition for habeas relief is subject to

court and “will not be overturned absent

showing of fundamental
unfairness which impinges on the due process rights of the petitioner.”
Vandenades v. United
States, 523 F.2d 1220,1225-26 (5th Cir. 1975).
Petitioner’s claim of intellectual disability is belied by th
Intake Psychological Screening report dated July
\

e record. While she attached an

10, 2007 to support her fourth Motion for

Appointment of Conflict-Free Counsel, ECF No. [57], indicating that h
er IQ is 72, the report also
concluded she has no mental retardation and does

o
fiinctions'

Id

at

21 ■

Further

not suffer from any mildly impaired adaptive

, a review of the record reveals that Petitioner has filed lengthy,

eloquent, and detail-oriented filings throughout

the proceedings in which she has cited to

relevant standards, case law, and the state-court record.

Contrary to her claim, her filings reveal

she is able to articulate legal arguments in

support of her request for relief. Because the record
does not reveal a need for an evidentiary hearing, the appointment of counsel is
not mandatory,
and there has been no showing that the interest of justice requires
an appointment of counsel,
Petitioner’s objection on this basis is overruled. See Rules Governing Section 2254 Cases Rule
8(c); see McGrijfv. Dept, of Con’s, 338 F.3d 1231 (life Cir. 2003); Thomas v. Scott, 47 F.3d
713, 715 (5th Cir. 1995).
Also intertwined with this objection is Petitioner’s
to pursue four of her thirty claims for habeas relief.

5

claim that this Court only allowed her

See ECF No. [54] at 2. Petitioner states that

N

ucise: u:ib-CV-62332-BB

Document #: 61 Entered on FLSD Docket: 05/31/2018

Page 6 of 19

CASE NO. 16-cv-62332-BLOOM/WHITE
the Court ordered her to file an amended motion and only allowed her to use the space provided
in the form, preventing her from adding extra pages,

Id. Again, Petitioner’s claim is belied by

the record. Although the Court required that she use the form petition, she
informed that her motion and its incorporated memorandum of law

was repeatedly

could be up to twenty pages

excluding the title page, signature pages, certificates of good faith, and certificate of service. See
ECF No. [4]. In addition, Petitioner was informed that she could file an amended petition within
the twenty-page limit and could exceed such a limitation with prior leave of court and

upon a

showing of good cause. Id. The Order did not limit Petitioner to the space provided within the
form and did not prevent her from adding pages. Id. Despite this, Petitioner opted to file a
sixteen-page application, raising only four claims, and

never requested leave of Court to file a

petition exceeding twenty pages so that she could raise all thirty claims for relief. The Court,
therefore, finds this objection to be without merit.
c. Objection Number 3
Next, Petitioner objects to the Report’s reliance upon and recitation of facts contained
within the Fourth District of Appeals’ opinion issued in her direct appeal. See ECF No. [54] at
9-12. She argues that, because she did not receive effective assistance of counsel during the trial,
the facts as explained in the appellate court should not be considered
allegations in the direct appeal.” Id at 11. The Court finds

as she “denie[s] all the

no error in the Report’s reliance

upon and recitation of facts from the Fourth District Court of Appeals' decision when discussing
the underlying facts of the offense and

procedural history,

pie appellate court’s opinion

^ovidesaredtatiM of the evidence presented at trial, regardless of whether Petitioner disag
with the veracity of such -eviderice and how her

6

rees

case was presentedjo the jury. As further

CASE NO. 16-cv-62332-BLOOMAVHITE
explained below, this Court finds that Petitioner

failed to prove her claims of ineffective

assistance of counsel, rendering her objection on this point moot,
d. Objection Number 4
As to her next objection, Petitioner argues that claim 3 is not procedurally barred. She
does not dispute Judge White’s conclusion that she failed to exhaust claim 3 in
waiting to raise the claim until her third amended
January 2, 2015.

state court by

motion for post-conviction relief filed on

Instead, she argues that the Court should consider an exception to the

procedural time bar to prevent a miscarriage of justice. See ECF No. [54]
she asserts a claim of actual innocence, which

at 13. Specifically,

allows consideration of a time-barred or

procedurally-barred claim. See McQuiggin v. Perkins, 569 U.S. 383 (2013).

While Petitioner is

correct that “actual innocence, if proved, serves as a gateway through which a petitioner may
pass whether the impediment is a procedural bar,” the Supreme Court has explained that “tenable
actual-innocence gateway pleas are rare.” McQuiggin, 569 U.S. at 386. A prisoner may present
a constitutional claim, such as ineffective assistance of counsel

, on the merits despite a

procedural bar only upon a “credible showing of actual innocence.”

Id. at 392-93. “To be

credible, such a claim requires petitioner to support his allegations of constitutional error with
new re^.aMe. ———^l^whe^er it be exculpatqry_sci£Qii_fic..eyidence, tnistworthyjeye.witlless
accounts, or critical physical evidence—that was not presented at trial.” Schlup v. Delo, 513
U.S. 298, 324 (1995) (emphasis added). “[A] petitioner does not meet the threshold requirement
unless he persuades the district court that, in light of the
reasonably, would have voted to find him guilty beyond

new evidence, no juror, acting

a reasonable doubt.” McQuiggin, 569

U.S. at 386 (citing Schlup, 513 U.S. at 329 and House

v. Bell, 547 U.S. 518, 538 (2006)

(emphasis added)). “The gateway should open only when a petition presents ‘evidence of

7

case: 0:16-cv-62332-BB

Document #: 61 Entered on FLSD Docket: 05/31/2018

Page 8 of 19

CASE NO. 16-cv-62332-BLOOM/WHITE
innocence so strong that a court cannot have confidence in the outcome of the trial unless the
court is also satisfied that the trial was free of nonharmless constitutional error.” Id. at 401
(emphasis added). It should also be noted that “[unexplained delay in presenting new evidence
bears on the determination whether the petitioner has made the requisite showing.” McQuiggin,
569 U.S. at 399. Such unexplained delay “should seriously undermine the credibility of the
actual-innocence claim.” Id. at 400.
In support of her objection, Petitioner argues that on June 29, 2017, she discovered “ new
evidence” when the prison law librarian, Ms. Green, informed her that the computer revealed an
amended indictment or information1 filed on August 23, 2007 - one month after she was
convicted. Id. at 14. This amended document charged Petitioner with two counts: first-degree
murder (Count I) and ‘“Solicit to Commit Robbery” (Count II). Id. According to Petitioner, this
newly discovered evidence was filed of record on August 23, 2007 by the Hallandale Police
Department in Case No. 062005CF01014414A888K) and established that the State conceded
defense counsel s theory of solicitation in which Petitioner solicited Ivan McKenzie a/k/a Dutch
to extort payment from the victim and that it was Dutch - not Petitioner - who killed the victim.
Id. Had the State presented the amended charging document to defense counsel prior to trial,
Petitioner argues that her counsel would not have pursued a strategy in which he admitted to
third-degree murder. Id. at 16.
Despite these arguments, Petitioner has not presented the Court with any evidence of her
actual innocence. She simply provides allegations that the prison law librarian, Ms. Green,
informed her of the August 23, 2007 amended indictment or information. Petitioner did not

It is unclear whether Petitioner claims the State filed an amended indictment or amended information as
she uses the two words interchangeably in her Objections. See ECF No. [54] at 14-16.
8

' uyw ss v/i

CASE NO. 16-cv-62332-BLOOM/WHITE
supply the Court with

copy of the alleged amended indictment or information that forms the
basis of her claim of actual innocence or an affidavit from Ms. Green anesting to the discover,.
Instead. Petitioner simply provides an unsubstantiated allegation, which falls far short of
satisfying the demanding standard articulated in SMup. Given the lack of evidence, the Court
cannot evaluate the claim to determine whether it supports Petitioner's actual innocence
argument.
The Court also finds no merit in the argument that an amended information or indictment
filed in August of 2007 in the public docket of the Seventeenth Judicial Circuit in

and for

Broward County, Florida constitutes newly discovered evidence.

Had Petitioner exercised any
degree of diligence, she could have discovered such readily available information.
Even if she
m'y “discovered” this public filing on June 29, 2017, Petitioner still waited „nUl after the
issuance of the Report (more than ni ne months) to raise her actual innocence argument and did
so Without any supporting evidence. Petitioner's failure to supply any reliable evidence and her
unexplained delay in raising this argument fail to satisfy the exacting standard under Schlup

. See
Jemison v. Nagle, 158 F. App'x 251, 256 <1 Ith Cir. 2005) (holding that the district court did
not
abuse its direction in failing to conduct an evidentiary hearing when the petitioner did
not
produce any reliable evidence to support the claim of actual innocence, such as the allegedly
exculpatory DMA report or ^results). For these masons. Petitioner cannot avail herself of this
exception to resurrect her procedurally barred claim of ineffective assistance of counsel

- claim

3. Petitioner’s objection is, therefore, overruled.
e. Objection Number 5
Next, Petitioner argues that defense counsel lacked the authority to waive her right
against self-mcnmination and her right to confront her witnesses when her counsel informed the
9

uase: u:i6-cv-62332-BB

.u
Document #: 61 Entered on FLSD Docket: 05/31/2018

Page 10 of 19

CASE NO. 16-cv-62332-BLOOM/WHITE
jury that the essential facts and elements of the prosecution’s case were not in dispute and made
a concession of guilt as to lesser-included offenses. See ECF No. [54] at 20-26. This objection
relates to Judge White’s recommendation that claim 1 be denied on the merits because Petitioner
failed to demonstrate that her counsel’s performance was deficient and prejudicial. Id.
Section 2254(d) only allows federal courts to grant habeas relief if the state court's
resolution of those claims:

(1) resulted in a decision that was contrary to, or involved an

unreasonable application of, clearly established Federal law, as determined by the Supreme
Court of the United States; or (2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the state court proceeding.” 28
U S.C. § 2254(d). Applying this standard, a state court’s decision will be deemed “contrary to”
clearly established Supreme Court precedent if either (1) “the state court applies a rule that
contradicts the governing law set forth in [Supreme Court] cases,” or (2) “the state court
confronts a set of facts that are materially indistinguishable from a decision of [the Supreme]
Court and nevertheless arrives at

result different from [the Supreme Court’s] precedent.”

Williams v. Taylor, 529 U.S. 362,405-06 (2000).
In a § 2254 petition for habeas relief based on a claim of ineffective assistance of
counsel, “[t]he pivotal question is whether the state court’s application of the Strickland standard
was unreasonable.” Harrington v. Richter, 562 U.S. 86, 101 (2011). This is not the
same as
asking whether defense counsel’s performance fell below Strickland’s standard. Id. Under
Strickland, a habeas petitioner was must satisfy a two-prong inquiry: (lj defense counsel’s
performance was deficient and (2) the deficient performance prejudiced the defense. Strickland
v. Washington, 466 U.S. 668, 687 (1984).

“A state court must be granted a deference and

latitude that are not in operation when the case involves review under the Strickland standard

10

•

J.

CASE NO. 16-cv-62332-BLOOMAVHITE
itself.” Id. “A state court’s determination that

a claim lacks merit precludes federal habeas relief

SO long as 'fairminded jurists could disagree' on the cotrectness of the state court's decision.”
Id. (quoting Yarborough v. Alvarado, 541 U.S.

652, 664 (2004)). “[I]t is not an unreasonable

application of clearly established Federal law for

a state court to decline to apply a specific legal

rule that has not been squarely established by th[e Supreme] Court.”
Mirzayance, 556 U.S. Ill, 122 (2009)). This standard under §

Id. (quoting Knowles v.

2254 was intended to be a

difficult one to satisfy. Id. at 102 (“If this standtud is difficult to meet, that is because it was
meant to be.”).
The Court must now apply these principles to Petitioner’s claim that her
counsel’s
performance was ineffective when he allegedly waived her right against self-incrimination as
well as her right to confront her witnesses by conceding her guilt to lesser-included offenses.
When the state trial court ruled on this claim and denied the habeas relief, it adopted the State’s
arguments contained within its response brief. See ECF No. [30-1] at 658. The State, in turn,
argued that defense counsel never conceded Petitioner’s guilt to the crime charged - first degree
murder - and instead made arguments in closing argument that she

was a principal to a third-

degree murder only after the State presented its evidence and that this tactic was a matter of trial
strategy to admit only a lesser-included offense. Id. at 633-634. Under Strickland, Petitioner
bears the burden of proving that her counsel’s concession “was objectively unreasonable and
that, but for the concession, a reasonable probability exists that the outcome of his trial
have been different.” Harvey v. Warden, Union Corr. Inst.,

would

629 F.3d 1228, 1249-53 (11th Cir.

2011). The Court now considers whether Petitioner’s objection to the Report has merit.
r

The Eleventh Circuit Court of Appeals has considered similar claims of ineffective
assistance of counsel. See e.g. McNeal v. Wainwright, 722 F.2d 674, 676-77 (11th Cir. 1984).
^'ll\
)

Wl

J. w/

Case: 0:16-cv-62332-BB

Document #: 61 Entered on FLSD Docket: 05/31/2018

Page 12 of 19
CASE NO. 16-cv-62332-BLOOM/WHITE

In McNeal, the defendant was also charged with first-degree murder and received a life sentence.
Id. Much like in this case, McNeill's counsel never stated that he

was guilty of murder and jjs
instead argued that the government hasUhgggj, proven manslaughter as there was no evidence

leads’- td Finding that “[a]n attorneys strategy may bind his client even wh^te
without consultation and that there was an overwhelming amount of evidence against McNeal,
the Eleventh Circuit held that it “cannot be said that the defense

strategy of suggesting

manslaughter instead of first degree murder

was so beyond reason as to suggest defendant was
deprived of constitutionally effective counsel.”
Id. (citing Thomas v. Zant, 697 F.2d 977, 987
(11th Cir. 1983)). More recently, the Eleventh Circuit
ineffective assistance of counsel claim,
determination that the petition failed

denied habeas relief for a similar

finding no error in the Florida Supreme Court’s

to prove a deficient performance or prejudice under

Strickland. See Atwater v. Crosby, 451 F.3d 799, 809 (11th Cir. 2006) (fmding that Florida
Supreme Court did not unreasonably apply or reach a decision contrary to clearly established
federal law when, in light of the overwhelming evidence of guilt presented by th
effort to save the defendant’s life, defense counsel
of ^remeditation butjhat the evidence

e state and in an

argued in closing that there was no evidence

may support second-degree murder). In a thorough

analysis of the Strickland prejudice prong, the Eleventh Circuit

more recently denied habeas

relief when the Florida Supreme court reasoned that

concession to first-degree murder during
opening statement “merely restated facts that the jury would soon hear when the State introduced
[the defendant’s] confession into evidence.”
counsel in Harvey conceded first-degree

liarvey, 629 F.3d at 1252. Although defense

murder in opening without first consulting the

defendant, the Eleventh Circuit determined that the Florida

Supreme Court’s finding of no

prejudice was not “ an unreasonable determination of the facts.”
Id. (quoting 28 U.S.C. §
12

—*

CASE NO. 16-cv-62332-BLOOM/WHITE
2254(d)(2)). This is because the State’s evidence against the defendant
was overwhelming and
included his confession, making it “vety difficult to see how the outcome of the trial
would have
been different had Wat
son not conceded Harvey's guUt, as charged in the indictment.” Id.
Petitioner argues the Report unreasonably concluded that the

concession of guilt was a

trial strategy as such a concession was a
departure from constitutional principles established by
the United States Supreme Conn. S« ECF No. [541 at 24. She (briber contends that due process
does not allow an attorney to admit facts that amount to a guilty plea without the client
and that her entry of a not guilty plea required the State
lesser-included offenses beyond

’s consent

to prove the charged offense and any

a reasonable doubt. Id. at 24-25. According to Petitioner,

defense counsel’s presentation to the jury was “the functional equivalent of a guilty plea,”
demonstrating that she satisfied both prongs of Strickland.

Id. at 25.

Upon review of the record, the Court concludes that the state
ineffective assistance of counsel claim did

court’s resolution of this

not result in a decision that “was contrary to, or

involved an unreasonable application of, clearly established Federal law,
Supreme Court of the United States”

as determined by the

and did not result “in a decision that was based on an

unreasonable determination of the facts in light of the evidence presented in
proceeding.

the state court

28 U.S.C. § 2254(d). During opening statement, defense counsel did

not concede

that Petitioner was guilty of the crime charged, first-degree murder. To the contrary, defense
counsel repeatedly stated in opening that “Ms. Rosa did not kill Lola Salzman.”
[31-1] at 367-368.

Instead, defense counsel

See ECF No.

provided a preview of the State’s evidence

consisting^of ^telephone calls in which Petitioner admitted she enlistedDutg

’s assistance to
coHect money owed by the victim and that the encounter with the victim went awry when she

uase: U:l6-cv-62332-BB

——^

*" •

—r-v

.

Document #: 61 Entered on FLSD Docket: 05/31/2018

Page 14 ofl^

CASE NO. 16-cv-62332-BLOOM/WHITE

took a knife and swung it at Petitioner. Id. at 364,366.
Defense counsel then argued that Dutch
killed the victim. Id.
During trial, the State presented evidence that the victim

’s neighbor saw Petitioner walk

into the victim’s apartment on the date of her death, July 4, 2002, and later leave huniedly fr
om
the apartment. See Rom v. Sale, 27 So. 3d 718 (Fla. 4th DCA 2010). Three of Petitioner’s
fingerprints were found at the scene. Id. Cell phone records also confirmed that Petitioner made
numerous calls from the victim ’s apartment on the date of her death. Id. Also on this date,
Petnionerch^ed±er4ipcoming,departure flight to Jamaica from July 11

, 2002 to July 5. 2002

jtndjhenagain from July 5. 2002. to Lhe.tjven.ng of JuljLijaffi^AedajMhe victim was killed.
U. Shejhen travelledJp^JammMjtsing apassporUnjhenameofJ\AlieiaJLue^en.’’ Id.
recordings of Petitioner’s conversations revealed that she admitted to
money from the victim and then stated that Dutch hit
threatened to call the police. Id.

Tape

sending Dutch to collgrt

the victim with a phone when she

In other
:r taped conversations, she provided conflicting

information, stating that she went to a lady’s housje to collect money

ononecall,thatshe did not
kaow what happed to the lady but she probably died in another call, and that she did not know
anything about the victim inye. atmthercaU. M And, after her arms., shewoluntarilyswedjha.
she worked as an aide for the victim, confronted her about the money owed with her friend Frost,
and when doing so, the victim attempted to stab her with a knife. Id. Frost then struck the
Vi^m‘10 jhi5-c?Mowedlby...them.leaving, the victim on the floor and driving away in the

same

vehicle the neighbor described. Id.
At the close of the State’s case, the Court, the State and defense counsel discussed the
inclusion of several lesser-included offenses on

the verdict form and in the jury instructions, such

as first-degree murder, second-degree murder, third-degree murder
14

, and manslaughter. See ECF

•“aye J.O ui Xi

CASE NO. 16-cv-62332-BLOOMAVHITE
No. [31-1] at 1233-1234. The inclusion of these lesser offen

ses formed part of defense counsel ’s
Olau^egy. « a, .344 ^^0^^ D«ch killed her. She ^7ou™Xc,io„
in motion by asking Dutch to get her

money.”).

At the commencement of the charge

conference, the Court turned to the Petitioner and said: “
: “Ms. Rosa, you need to participate in
this process.” Id. at 1234. Petitioner did not

voice any objection to the inclusion of the

lesser-included offenses in the jury instructions at any point during the charge conference. See
ECF No. [31-1] at 1233-1252. Thereafter, in closing argument. Petitioner

’s counsel argued as

follows:
I have never, since this trial started, asserted to you that my client was innocent or ^
Tomeh Jnv0 ved> 1 WOuld lose 311 "edibility with you if I did, but what I have
come before you to say is that my client is not guilty, not guilty of first degree
murder, rather, my client committed a much lesser crime, and you’re going ufget
i
i jp inStrUCti?n '*tat> and that crime is that she committed the crime of thfrd i
)
= degree murder. That s why we’re here today.
/
See eW No. [31
-1] at 1338.
Given the overwhelming evidence presented by the State against Petitioner

, it cannot be

said that the defense strategy of conceding third-degree
murder instead of first-degree murder
“was so beyond reason as to suggest defendant was deprived of constitutionally effective
counsel.” McNeal v. Wainwright, 722 F.2d 674,676-77 (11th Cir. 1984). In fact, as pointed out
in closing, defense counsel believed the defense would have lost credibility had he

argued that

Petitioner was innocent or not involved at all. See ECF No. [31-1] at 1338. “In this light,
counsel cannot be deemed ineffective for attempting to impress the jury with his candor and his
unwillingness to engage in ‘a useless charade.’” Fla. v. Nixon, 543 U.S. 175, 192 (2004);
;

see

also Atwater v. Crosby, 451 F.3d 799, 809 (11th Cir. 2006). Petitioner likewise failed to present
any evidence of prejudice by the comments made during opening as defense counsel simply

/C\
15

X

«~ase: u:ib-cv-62332-BB

Document #: 61 Entered on FLSD Docket: 05/31/2018

Page 16 of 19

CASE NO. 16-cv-62332-BLOOM/WHITE
/*.:> '//

restated the facts that the State would introduce at trial. Harvey, 629 F.3d at 1252.

And, in light

3 <+■&

°f the vast amount of evidence presented by the State, Petitioner failed to demonstrate that the
^outcome of the tnalv^jtidhgvebgCTany differentJiad.defense counsel not conneried-^-W^r.
Based on 1116 foregoing, the Court cannot conclude that the state trial court
unreasonably applied or reached a decision contrary to clearly established federal law or
unreasonably determined the facts in light of the evidence presented in the state court
proceeding. Thus, Petitioner’s claim number 1 is denied on the merits and her objection to the
Report is overruled.
f. Objection Number 6
Petitioner’s final objection relates to claim 2(a). She argues that the Report misconstrued
her position regarding the authenticity of telephone conversations. See ECF No. [54] at 27.
According to the Objections, her position is not that her counsel was ineffective by failing to
object to the presentation of the recorded telephone conversations. Id. Instead, she states she
“wants the State to present its alleged telephone conversations and all it [sic] evidence to the
jury. What she is saying is that she object [sic] to the authenticity of the alleged tapes and all the
state evidence for the jury to decide the credibility of the witnesses and the state entire evidence,
she is entitle [sic] to that absent that right the jury verdict is unreliable.”

Id. On the one hand,

she does not fault her defense counsel for failing to object to the admission of the recorded
conversations because she wants the State to present the evidence to the jury and, on the other
hand, she objects to the authenticity of the tapes and wants the jury to decide the credibility of
the witnesses. Petitioner’s objection is irreconcilably inconsistent and unintelligible. To the
extent Petitioner claims her attorney was ineffective for not objecting to the authenticity of the

1
\ 16
\

\

‘■y

:P
jl-z

CASE NO. 16-cv-62332-BLOOMAVHITE
tapes, the Court adopts Judge White’s well-reasoned

analysis on this point. Therefore, this

objection is also overruled.
g. Certificate of Appealability
Finally, Petitioner filed separate Application for Certificate of Appealability. See ECF
No. [59]. The Court first finds that Petitioner’s Application for Certificate

of Appealability is

untimely as it is, in reality, a belated objection to Judge White’s recommendation that no
Certificate of Appealability be issued. See ECF No. [59]. Petitioner was cautioned in the Report
that she had fourteen days upon her receipt to file her objections with the district

court. See ECF

No. [53] at 38. Although her objections, addressed above, were timely filed, her Application for
Certificate of Appealability, which is an additional objection, was
not. Petitioner admittedly
received the Report on April 6, 2018. See ECF No. [54] at 1. She was, therefore, required to
provide all of her objections to prison officials for mailing no later than April 20, 2018 under the
prisoner mailbox rule. See Newnam v. McDonough, 2008 WL 539065 (N.D. Fla. Feb. 22, 2008)
(citing Washington v. United States, 243 F.3d 1299,1301 (11th Cir. 2001)) (noting that pursuant
to the prisoner mailbox rule, “a pleading is considered filed by an inmate on the date it
delivered to prison authorities for mailing, which (absent contrary evidence) the

was

court assumes is

the date he signed it”); see also Garvey v. Vaughn, 993 F.2d 776, 783 (11th Cir. 1993) (stating
that “the date of filing shall be that of delivery to prison officials of a complaint or other papers

destined for district court for the purpose of ascertaining timeliness”). Although Petitioner did
not date the Certificate of Service, prison officials at Homestead Correctional Institutional
stamped the legal mail as received by them on April 25, 2018. See ECF No. [59] at 1,14. Thus,
Petitioner failed to timely file this specific objection to the Report as it was filed five days after
the deadline.

17

W MWW .

O. J.U'OV*U^OO£."UU

u'uoui iicm

ox

ciifeieu un i-lou uocKei;

uo/ji/^uib

page its or iy

CASE NO. 16-cv-62332-BLOOMAVHITE
Despite the untimeliness of the objection, the Court will consider the merits of the
request. As explained in Judge White’s Report, a certificate of appealability should only be
issued if the Petitioner makes “a substantial showing of the denial of a constitutional right.” 28
U.S.C. § 2253(c)(2). If the district court rejects the Petitioner’s constitutional claims on the
merits, the Petitioner must establish that reasonable jurists would find such an assessment of the
constitutional claims to be debatable or wrong. See Slack v. McDaniel, 529 U.S. 473, 484
(2000). If the district court rejects a claim for procedural reasons, then the petitioner must show
that jurists of reason would find it debatable whether the petition states a valid claim of the
denial of a constitutional right and that jurists of reason would find it debatable whether the
district court was correct in its procedural ruling.” Id. Petitioner has made no such showing as
to the Report’s denial of claims 1, 2 and 4 on the merits or the denial of claim 3 on procedural
grounds. Indeed, the arguments she raises are simply a recitation of the same arguments raised
in her Objections, which the Court rejected above and are not subject to debate by reasonable
jurists. Thus, Petitioner’s objection to Judge White’s recommendation that a Certificate of
Appealability be denied is also overruled.
In sum, the Court finds Judge White’s Report to be well reasoned and correct. The Court
agrees with the analysis in Judge White’s Report, finds no merit in Petitioner’s Objections, and
concludes that the Petition must be denied on the merits as to claims 1, 2, and 4 and dismissed as
procedurally barred as to claim 3 for the reasons set forth in the Report.
For the foregoing reasons, it is ORDERED and ADJUDGED as follows:
1. Magistrate Judge White’s Report and Recommendation, ECF No. [53], is ADOPTED;

2. Petitioner’s Petition, ECF No. [7], is DENIED on the merits as to claims 1, 2, and 4
and DISMISSED as procedurally barred as to claim 3;
18

\

CASE NO. 16-cv-62332-BLOOM/WHITE
3. Petitioner s Objections, ECF No. [54], are OVERRULED1
4. Petitioner’s Application for Certificate of Appealability, ECF No. [59], is DENIED.
No Certificate of Appealability shall issue;
5. All pending motions are DENIED AS MOOT; and
6. The Clerk shall CLOSE this case.
DONE and ORDERED in Miami, Florida, this 31st day of May, 2018.

BETH BLOOM
UNITED STATES DISTRICT JUDGE
Copies furnished to:
Charlene Terry-Ann Walker Rosa
L06814
Homestead Correctional Institution
Inmate Mail/Parcels
19000 SW 377th Street
Florida City, FL 33034
PRO SE
The Honorable Patrick A. White

19

&
V

-r>

v

~U fcU K)ct4 fQ^d1 i4y//^J 7^° Jo

-ry

-r*r

.i!k. Caution
As of: May 1,2018 1:21 AM Z

Rosa v. State
Court of Appeal of Florida, Fourth District
January 27,2010, Decided
No. 4D07-2778

Reporter
27 So. 3d 718 *; 2010 Fla. App. LEXIS 533 **; 35 Fla. L. Weekly D 239

Core Terms
CHARLENE ROSA, Appellant, v. STATE OF FLORIDA,
Appellee.
Subsequent History: Rehearing denied by Rosa v. Stole.
2010 Fla. Add. LEXIS 3318 (Fla. Dist. Cl Add. 4th Dist..
Mar. 12. 2010)

polygraph, defense counsel, mistrial, trial court, polygraph
examination, curative instruction, cross-examination, murder,
impeach

Case Summary

Appeal dismissed by Rosa v. State, 77 So. 3d 1255, 2011 Fla.
LEXIS2993 (Fla., Dec. 27, 2011)
Post-conviction proceeding at, Remanded by Rosa v. State, 78
So. 3d 674, 2012 Fla. Aon. LEXIS 987 (Fla. Dist. Cl. App. 4th
Dist., Jan. 25, 2012)
Dismissed by Rosa v. State, 153 So. 3d 909, 2014 Fla. LEXIS
3168 (Fla., Oct. 21, 2014)
Dismissed by Rosa v. State, 173 So. 3d 965, 2015 Fla. LEXIS
1581 (Fla., July 24, 2015)
Dismissed by Rosa v. State. 2015 Fla. LEXIS 1834 (Fla..
Sent. 1. 2015)
Post-cOnviction relief denied at Rosa v. State, 224 So. 3d 237,
2017 Fla. App. LEXIS 2813 (Fla. Dist. Ct. App. 4th Dist.,
Mar. 2,2017)
Related proceeding at, Writ dismissed by Rosa v. Stale. 2017
U.S. Dist. LEMS 111639 (S.D. Fla.. July 17. 2017)
Dismissed by Rosa v. State. 2017 Fla. LEVIS 1815 (Fla..
Sent. 7, 2017)
Magistrate's recommendation at, Habeas corpus proceeding at
Rosa v. Jones. 2018 U.S. Dist. LEXIS 56733 tS.D. Fla.. Anr.
2. 2018)
Prior History: [**1] Appeal from the Circuit Court for the
Seventeenth Judicial Circuit, Broward County; Jeffrey R.
Levenson, Judge; L.T. Case No. 2004010827CF10A.

Procedural Posture
Defendant sought review of a judgment from the Circuit
Court for the Seventeenth Judicial Circuit, Broward County
(Florida), which convicted him of first degree premeditated
murder, and which imposed a life sentence upon him.
Overview
Defendant argued that the trial court erred in denying a
defense motion to cross-examine a state witness concerning
the results of a polygraph examination and in denying his
subsequent motion for mistrial. Upon review, the court noted
that there was no agreement between the State and defense
allowing the admission of the polygraph examination. Thus,
the trial court properly denied defendant's request to crossexamine the witness about the polygraph examination.
However, when the witness indicated that he had go to the
State attorney's office to take a polygraph, the issue arose for
a second time. The trial court did fashion a curative
instruction to protect any harm the single word could have
caused. Not only was the mere mention of the polygraph was
not the same as indicating the results thereof, but the
comment was elicited during cross-examination by defense
counsel who wanted to question the witness on the polygraph.
Finally, the court found that there were multiple witnesses and
substantial evidence inculpating defendant. Accordingly, the
trial court did not err in denying the miss trial.
Outcome
The court affirmed the trial court's judgment.

Page 5 of 18
Rosa v. State

LexisNexis® Headnotes

Criminal Law & Procedure > ... > Standards of
Review > Abuse of Discretion > Evidence
Evidence > ... > Scientific Evidence > Lie
Detection > Polygraphs
Evidence > Admissibility > Procedural Matters > Rulings
on Evidence
//A'/fi&l Abuse of Discretion, Evidence

Opinion
[*719] MAY, J.
One little word-polygraph—does not merit a reversal of the
defendant's conviction for first degree premeditated murder
and life sentence. Among other issues, the defendant argues
the trial court erred in denying a defense motion to crossexamine a state witness concerning the results of a polygraph
examination and the court’s denial of a subsequent motion for
mistrial. We find no error and affirm.
The State indicted the defendant for first degree premeditated
of felony murder for the stabbing death of the victim. The
defendant worked as a caretaker for the victim, who~was in
}jer 70's. The victim often required her caretakers to |*720]
come back to collect their money days after it was due.

The admissibility of evidence lies in the sound discretion of
the trial court; an appellate court will not reverse a ruling
unless there has been a clear abuse of that discretion. This
general rule is tempered by Florida's more conservative
approach to the admission of polygraph evidence. Absent an The victim was seen alive on July 3, 2002. Although the date
agreement between the state and defense, the results of a of death is uncertain, [**2] phone records and an autopsy
polygraph examination are inadmissible because they have report indicate that the victim died on July 4, 2002. On that
not been shown to be sufficiently reliable to warrant their use date, the victim's neighbor saw the defendant outside, then
injudicial proceedings.
walk into the victim's apartment, and later leave hurriedly
alone in her burgundy Ford F-150 truck.
Criminal Law & Procedure > ... > Standards of
A friend of the defendant's testified that the defendant had
Review > Abuse of Discretion > Mistrial
been scheduled to travel to Jamaica on July 11, 2002, and had
asked her to care for the victim while she was gone. On July
Criminal Law & Procedure > Trials > Motions for
4, 2002 the defendant called her friend from the victim's
Mistrial
phone and told her that the victim was not paying her monies
HN2\&\ Abuse of Discretion, Mistrial
that were due. The defendant also changed her plane
reservation from July 11th to July 5th, and again changed the
A motion for mistrial is left to the sound discretion of the trial reservation to leave on the evening of July 4th. She told her
court. An appellate court reviews such decisions for an abuse friend that she needed to leave early because her child was
of discretion. A mistrial should be granted only when the sick.
error vitiates the entire trial. Not every reference to a
polygraph exam is inadmissible, nor does every improper The police discovered the victim's body on July 17, 2002. The
admission of the taking of a polygraph exam require a victim had been stabbed forty-three times. The only signs of
criminal activity were in the bedroom and a small amount of
mistrial.
blood transfer in the hallway. The defendant left three
fingerprints at the scene. None of the prints contained blood.
Counsel: Carey Haughwout, Public Defender, and Ellen
Griffin, Assistant Public Defender, West Palm Beach, for
The police asked the defendant's friend to tape record her
appellant.
conversations with the defendant. The tape recordings
Bill McCollum, Attorney General, Tallahassee, and Heidi L.
[**3] were entered into evidence, without objection, and
Bettendorf, Assistant Attorney General, West Palm Beach, for played for the jury ln one controHed call, the defendant
appellee.
explained that 'she had sent an acquaintance known as Dutch
Judges: MAY, J. POLEN and GERBER, J J., concur.
Opinion by: MAY

to collect money, and that Dutch told her the victim had
screamed at him and threatened to call the police. Dutch told
her that he may have hit the victim with the phone.
Another of the defendant's friends also made controlled calls.
In one unrecorded call, the defendant stated that she had gone

Page 6 of 18
Rosa v. State
to a lady's house to collect some money. In another controlled
call, the defendant stated that she did not know what
happened to the lady, but she probably died. On yet another
call, the defendant continuously denied knowing anything
about the victim.
The homicide investigation took two to three years until the
Jamaican authorities arrested the defendant. A member of the
Jamaican Fugitive Apprehension Team testified that the
defendant was using a passport in the name of "Alicia
Lueyen." The defendant explamedthat "Alicia" was the name
ofarelative of her ex-husband and "Lueyen" was her exhusband's last name that she kept.

Q. I don't have any further questions.
At the conclusion of Dutch's testimony, defense counsel
objected to Dutch's response concerning the polygraph. He
suggested the only way to cure the impression left by the
testimony was to allow him to impeach Dutch with the
polygraph results. The trial court responded:
Whether he passed or he didn't, he said he came to take a
polygraph, he didn't say he took the polygraph, and the
fact is, I'm going to tell the jury whether he did or didn't
take the polygraph, or whatever occurred, is irrelevant,
not to be considered by them. The case law is very clear
on this.

After her arrest, the defendant voluntarily told an authority
that she worked as an aide for a woman and [**4] she
confronted her about money that was owed with her friend
"Frost." She claimed the woman stabbed her with a knife, and
showed the resulting scar on her hand. This led to the woman
being struck in the face by Frost. They took the knife, leaving
the woman on the floor bleeding, and drove away in the
vehicle that had been described by the neighbor.

When the court inquired about a curative instruction, defense
counsel repeated the only way to cure the problem was to
allow him to impeach Dutch with the results of the polygraph.
The court then asked if defense counsel waived a curative
instruction. Defense counsel responded: "Well, [**6] you're
going to give the instruction you feel is appropriate." Defense
counsel then suggested that the court instruct the jury that the
witness went to take a polygraph and whether he passed or
not should not be considered by the jury. The court then gave
The defense contended that Dutch committed the murder. To_ tj^e following instruction:
support "This theory, the defense attempted to introduce
Ladies and gentlemen, there was a reference by the
evidence that Dutch had failed a polygraph test administered
witness that he came to the courthouse to take a
by the Office of the State Attorney. The polygraph report
polygraph examination. Polygraph examinations are
revealed that two of Dutch's answers to polygraph questions
clearly not relevant, not admissible, and not before you.
showed deception: (1) was he ever at the victim's apartment;
Whether he did or did not ultimately take that
and (2) was he present when she was killed. The defense
examination, or anything that occurred, is completely
orally moved to cross-examine Dutch about the polygraph
irrelevant and not something you should consider and not
results. After some discussion, the court denied the defense
something before you. Okay? It just happened to be
motion. The court specifically found [*721] that the
blurted out by the witness. So, A, it's not before you
"potential relevance for impeachment and otherwise is far
whether he did actually take the polygraph; and, B, if he
outweighed by the potential prejudice."
did take the polygraph it's not before you what the results
The State called Dutch as a witness. He testified that he had
are.
collected some debts for the defendant, but he did not
What I'm telling you now is you are to completely
accompany her to the victim's house for that purpose. During
disregard that answer that was blurted out. Do we
cross-examination, [**5] defense counsel asked Dutch about
understand that? Don't assume anything. Don't speculate,
his trip to the State Attorney's office.
oh, he took it, he passed, or he took it, he failed. Don't
[Defense Counsel] Did you come down here to the
assume that he took it, don't assume whatever any results
courthouse?
are. Do we understand that? Can you promise me that?
[**7] That's kind of crucial.
A. Pardon me?
Trial for that day ended after the curative instruction.
Q. Do you recall coming down here to the courthouse?
A. Yeah, I came to the courthouse.
Q. You came to the State Attorney's Office?
A. Yeah, I came to do a polygraph.

The next morning, defense counsel moved for a mistrial
arguing Dutch's testimony had left the jury with the
impression that he had passed the polygraph, the testimony
was prejudicial, and the curative instruction was insufficient
to remove the taint. The court asked whether there was
anything else it could do to "inoculate the jury." Defense
counsel answered "no." After a lengthy discussion, the court

Page 7 of 18
Rosa v. State
denied the motion for mistrial. Defense counsel marked the
polygraph report as an exhibit for appellate purposes.
[*722] The State made the following comment during
closing argument.
This is a case that is building. The moment that name
Dutch came out, as a good law enforcement officer, as a
good investigator, you have to consider all possibilities
now, all bets are off. So it's not that anybody thought he
really did it. I mean* everything she is saying, it's all
confusing.
Defense counsel did not object to the statement. After the
State's closing, defense counsel renewed the motion for
mistrial and argued that the State's closing had increased the
prejudice of Dutch's reference to the polygraph examination.
The court [**8] denied the motion.
The jury returned a guilty verdict on one count of first degree
murder. The court sentenced the defendant to life in prison
without the possibility of parole.
The only issues we address concern the trial court's handling
of the polygraph. First, the defendant argues that the court
erred in initially denying the defendant's request to impeach
Dutch with the results of the polygraph. Second, the
unanticipated polygraph testimony became particularly
prejudicial because it left the jury with the impression that
Dutch^assed the test, which directly contradicted the
defe n4a»fs theory that Dutch had committed the murder. And
IhTFdTtl^^as compounded when The nrose^Tarsued

by Florida's "more conservative approach to the admission of
[polygraph] evidence." McFadden v. State. 540 So. 2d 844.
846 (Fla 3d DCA 1989). Absent an agreement between the
state and defense, the results of a polygraph examination are
inadmissible because they have not been shown to be
sufficiently reliable to warrant their use in judicial
proceedings. See United States v. Scheffer. 523 U.S. 303. 309.
118 S. Cl 1261. 140 L. Ed/2d 413 (I998): Davis v. State. 520
So. 2d 572 (Fla. 1988).
Here, there was no stipulation. Thus, initially the trial court
properly denied the defense request to cross-examine Dutch
[**10] about the polygraph examination. When Dutch
indicated that he had gone to the Office of the State Attorney
to take a polygraph, the issue arose for a second time.
While defense counsel did not immediately object, as soon as
the questioning concluded, counsel brought the issue to the
court's attention. The court again advised the defense it would
not allow cross-examination of Dutch and provided a
thorough curative instruction, advising the jury not to
consider the testimony. The court went [*723] out of its way
to fashion an instruction to protect any harm the single word
may have caused. The court also noted that there had been no
indication that Dutch took the polygraph or what the results of
the polygraph were.

HN2\+] A motion for mistrial is left to the sound discretion
of the trial court. We review such decisions for an abuse of
discretion. Salazar v. State. 991 So. 2d 364. 37! (Fla. 2008).
should^ ffjanteci only when the error vitiatesjhe
entire
trial.
Id. at 372. "[N]ot every reference to a polygraph
in closing that Dutch had never really been a suspect.
exam is inadmissible, nor does every improper admission of
The State has several responses. First, the issue was not the taking of a polygraph exam require a mistrial." Olivera v.
preserved because the objection was untimely. 1 Second, even State, 813 So. 2d 996, 998 (Fla. 4th DCA 2002) (quoting
if preserved, the trial court did not abuse its discretion when it Mcladden, 54(1 So, 2d at 845). 1**11] We find the mention
denied the request to impeach Dutch with the results of the °f the word polygraph in this case significantly
polygraph examination. Third, the trial court cured any error distinguishable from the admission of having taken a lie
by its instruction. Fourth, the court did not err in denying the detector test in Olivera.
motion for mistrial because the jury was neither informed of
whether [**9] the polygraph was taken nor of the actual
Olivera, the state unintentionally elicited that its only key
witness
had taken a lie detector test. 813 So. 2d at 997. The
results. And fifth, the error, if any, was harmless.
trial court sustained the objection, gave a short curative
7/A7r¥l The admissibility of evidence lies in the sound instruction, and denied the motion for mistrial. Id. The jury
discretion of the trial court; we will not reverse a ruling unless convicted the defendant on all charges. Id. at 998. But we
there has been a clear abuse of that discretion. Ray v. State, reversed, based on the unique facts of the case. Id. at 999.
755 So. 2d 604, 610 (Fla. 2000). This general rule is tempered
In Olivera, there was no physical evidence and no witnesses
placing the defendant at the scene. Id. at 997. The entire case
1 While defense counsel waited to object until the end of Dutch's was built on one witness alone, who testified that the
testimony, he later renewed the objection, and moved for mistrial, defendant had made inculpatory statements to him. Id. at 998.
Defense counsel explained to the court that he did not immediately That witness had not come forward until two years following
object so as to not draw attention to the remark. We find the issue the murder, and only after being threatened with deportation
sufficiently preserved.

Page 8 of 18
Rosa v. State
by law enforcement and eviction by family members unless
he implicated the defendant. Id. at 997. He was the son of the
dead perpetrator, was on probation, had admitted to using
marijuana, and had made prior inconsistent statements
denying any knowledge of the crime. Id. In short, he had been
significantly discredited [**12] by defense counsel. "Thus,
unless the jury believed that he had passed the lie detector
test, it is hard to fathom that his testimony would have led to
the defendant's conviction ...." Id. at 998.
In Olivera, we cautioned "that the mention of the 'three little
words' [lie-detector test] does not, ipso facto, require" a
reversal. Id. This is just such a case. Here, Dutch's mere
mention that he went to the state attorney's office to take a
polygraph is not the same as indicating that he had in fact
taken the exam or the results of the exam. Cf. Walsh v. State,
4IS So. 2d WOO, 1002 (Fla. 1982). The comment was not
elicited by the State, but came as a result of defense counsel's
cross-examination when it was clear that defense counsel
wanted to cross examine Dutch about the polygraph.
Dutch did not suffer the same credibility issues as the witness
in Olivera. There were multiple witnesses and substantial
evidence inculpating the defendant. A friend of the defendant
confirmed a conversation in which the defendant complained
about not being paid for services. Other cell phone records
confirmed numerous calls from the victim's location; The
left
the
country
abruptly.
Recorded
defendant
[**13] conversations suggested the defendant's involvement
leading to the death of the victim. Under the facts of this case,
we find no error in the trial court's denial of the motion for
mistrial.
This holding is bolstered by the great lengths taken by the
trial court to insure that the one little word was not considered
by the jury in its deliberations. The court clearly and
forcefully advised the jury that polygraph examinations were
irrelevant, that it was neither to consider [*724] whether a
test was taken nor the possible results. The court instructed
the jury to completely disregard Dutch's answer. At the close
of the trial, the trial court instructed the jury that it was only to
consider the evidence introduced in the trial, and that if it
disregarded his instructions the verdict would be a
miscarriage of justice. We further hold that the court's
curative instruction cured any prejudice that may have
resulted.
For these reasons, we affirm the defendant's conviction and
sentence. We find no merit in the other issues raised.
Affirmed.
POLEN and GERBER, JJ., concur.

End of Document

Office of the

PUBLIC DEFENDER
!*■

SEVENTEENTH JUDICIAL CIRCUIT
BROWARD COUNTY

r-

BottAwnmnunnt

WUCBBMB

BROWARD COUNTY COURTHOUSE
201 S E. 6TH STREET. NORTH WM6, THIRD FLOOR
FORT LAUDERDALE. FLOROA 33301
TELEPHONE (B54) 831-8650
SUNCOMifiiJfiSA

TWs Writ^f* Phone Number (954) 831-0750

Attorney-Client Privilege Communication
June 1,2007
Charlene Rosa
#580500776
NBB - Broward County Jail
Re:

State v. Rosa

Dear Ms. Rosa:
Today Michael Etienne and I came to the jail to play you the tape recordings of telephone
conversations. As related to you previously, Maxine and Omar assisted the police by
agreeing to have their telephone conversations recorded. According to the police and the
prosecutor, Maxine and Omar spoke to you via telephone while you were in Jamaica
j/VhenJLpreyiouslyjslated thjsJnfQnnationJajiQu. vou_did not believe rrm
. I
brought the tape recordings to the jail for you to listen to.
We listened to a tape-recording dated August 7,2002, which was a little over a month after
you returned to Jamaica, that the police and prosecution contend is a conversation
between you and Maxine. On the tape-recording, Maxine asks to speak with Charlene and
the person answering identifies herself as Charlene.
You told us that the voiceon that tape-recording was not you. I showed you the other tape
recordings, related the dates of the conversations, and identified the parties the
prosecution contends participated in the conversations. You told us that you did not want to
listen to any of the other tape- recordings, because ynu were not the person recorded.
Thus, I honored your request and did not play the rest of the tape recordings. If you change
your mind, please say so. Either Michael or I will come to the jail and play them for you.
After I got back to the office, I had an e-mail from Mr. Frankel. We may be able to go to trial
in the next couple of months. I will know more on Monday. I know you wouldlike get this
matter resolved. There are only two wavs that this case is going to resolve itself- ao to trial
Qf-GjeasLgujjty. Inthat you have repeatedlyjoldme that vou are not guytiT theroacTahead

369

!

|

i

!

^

-cmi/ ol Cfll<JLj0l.
fitf/fadj &4j?t#*t0L
obyn dt- "to MquWl CboJnfiH foiW K«Wv/Aiu>ni V Ui*-

<90lce i>f tfpt Pisiilic Befimder

ujbuiv'^

RrmumiJudicial.CucuttorFlotbda
481£XdStxeet
West Palm Beach, Aouda
834°>M*97

Cjurey Hragbwont
Pubuc Defender

gets

m
1

QLuJA-IA

fc^ecr

EDen Griffin
Assistant Pubuc DoneNDQi
561-6x4-6560

• Li.

Ms. Charlene Rosa ,
#L06814DormM2
Lowell Correctional Institution/Annex
11120 N.W. Gainesville Road
Ocala, Florida 34482

8L

December 3,2008

Re: DCA Case No.
4D07-2778
%
Dear Ms. Rosa:
I have received your letter regarding the state's answer briefand wanted to assure you that
a plan to file a reply brief. That brief is now due at the aid of April. I also plan, at least at
this time, to request oral argument in your case.
You specifically mention the state's response to our argument about your use of a “false
name" and state you can prove that you did not get the passport in connection with Ms.
Salzman’s death. While that may be true, I caxupot introduce new evidence on appeal. 1 will
do my best to make the argument with the evidence and testimony already in toe record.
voii

prove it was n<

sis,t<

ie tapes.

Enclosed is another copy of toe initial brief. If the direct appeal fails, I will forward
everything I Have to you to use in any postconviction proceedings.
Sincerely,

Ellen Griffin
Assistant Public Defender

•

1

62

£=- K kb ^

399

0 ^v)

i
■

aw®iumom

jfgp
STA7E OF FLORIDA,
x

WARDcounty, aoftflM c,Rco/r

!

P/aWjff,
. . *.

P4

V.

’^r^S

** "Mwcnp

)
)
l/

----------Qefendanf

' ':>'■'

•

•■'•.■

)

vlai

di^/v

-----1

..5SC

ORDER DISMISSING DEFENDANTS Uftn
THIS . CAUSE

ro
o

c?q~

.

?S

.r

S

OTION TO DISCHARGE

Sam, ^ ~ *> * * S' ^ **««* w
,h>s Court finds at fofo^.

6 ^ « ^hg othenvfee

be flte« therefor ThisS f*

“nsWere«
n ®* Premises,

ranfer ^ herl!!

"te ^

for o^/ ^ *«■" notes tha,

r

“* ^ ^

sacoufldate^

DISMISSED

done AND 0Rn«,

^ 0ef8ntfanrs Motion i
^ U,UdWt,ate’ Bro'vard Comfy" ^7^*^ of October. 2006, ,s hereby
!Q Chambers,

JEF?

Copies furnished io:

citfei

Office of the State Attr

(Jenson

orney
£sq.

.^^Sssu
pI^n^w80500776
Fort'tl°*4D70°3

e,e^l,a,e, Florida 33340
/

Filing # 59928307 Exiled 08/03/2017 04:33:01 PM
IN THE

CIRCUIT COURT OF THE SEVENTEENTH JUDICIAL CIRCUIT
IN AND FOR BROWARD COUNTY, FLORIDA

CASE NO:
JUDGE

n

04010827CF10A
BARBARA MCCARTHY

STATE OF FLORIDA
Plaintiff
v.
. CHARLENE ROSA
Defendant

NOTICE PURSUANT TO RULE 3.220(b)(4)
COMES NOW the State of Florida, by and through the undersigned Assistant
State Attorney, pursuant to Rule 3.220(b)(4), Florida Rules of Criminal Procedure,
submits the following information which is in the State's possession or control which
may fall within the purview of Brady v. Maryland and/or Rule 3.220(b)(4):
please be advised that on April 12, 2016, the Broward Sheriff's Office (BSO)
DNA Crime Laboratory was advised by the American Society of Crime Laboratory
Directors/Laboratory Accreditation Board that there was, "(I)nappropriate use
of the statistic known as the Combined Probability of Inclusion (CPI) to
calculate statistical significance of occurrence of genetic profiles when
allelic dropout is known and/or suspected to have occurred." We have been
advised that CPI calculations were only used by the BSO DNA Crime Lab in
complex DNA mixture cases. Documents regarding this matter may be found at
http: //www. sao!7 ■ state. f1. us/BSODNA ASCLP .pdf
This notice is being sent to you because our records indicate that you were a
party in this case and there may have been DNA evidence tested by the Broward
Sheriff's Office Crime Laboratory.
If there was DNA evidence in your case,
there has not been a determination whether the CPI calculations were utilized
or whether the evidence was relevant in your particular case. This matter is
being brought to your attention because the DNA population genetic
calculations may have been inaccurately tabulated.
Please contact your
attorney to further discuss this information.

n

I HEREBY CERTIFY that a true copy hereof has been furnished
Electronically this 28th day of July, 2017, to
. Harry Williams, Esquire, 990 NW 5th Street, Boca Raton,
counsel for the defense:
FL 33486-3432
At Large
CC: Defendant

MICHAEL J SATZ
State Attorney
By:
SHI
Assistant State Attorney
FI Bar
#879150
201 S.E. 6th Street
Unit
HTU
Ft Lauderdale, FL 33301
Service Email: CourtDocs@saol7.state.fi.us

\

/

104

n

